1a
Notice: This opinion is subject to formal revision before publication in the advance sheets of Southern
Reporter. Readers are requested to notify the Reporter of Decisions, Alabama Appellate Courts, 300
Dexter Avenue, Montgomery, Alabama 36104-3741
((334) 229-0649), of any typographical or other errors,
in order that corrections may be made before the opinion is printed in Southern Reporter.
SUPREME COURT OF ALABAMA
OCTOBER TERM, 2018-2019
-----------------------------------------------------------------------

1170244
-----------------------------------------------------------------------

Facebook, Inc.
v.
K.G.S., individually, and as guardian and
next friend of Baby Doe, a minor child
-----------------------------------------------------------------------

1170294
-----------------------------------------------------------------------

Renee L. Gelin
v.
K.G.S., individually, and as guardian and
next friend of Baby Doe, a minor child

2a
-----------------------------------------------------------------------

1170336
-----------------------------------------------------------------------

Kim McLeod
v.
K.G.S., individually, and as guardian and
next friend of Baby Doe, a minor child
Appeals from Jefferson Circuit Court
(CV-17-255)
(Filed Jun. 28, 2019)
BRYAN, Justice.1
This case stems from the adoption of “Baby Doe”
by his adoptive mother, K.G.S., which was contested by
Baby Doe’s birth mother, K.R. (“the birth mother”). Details of that contested adoption were reported by the
Huffington Post, a Web-based media outlet, and were
also disseminated through a Facebook social-media
page devoted to having Baby Doe returned to the birth
mother. K.G.S. filed an action in the Jefferson Circuit
Court (“the trial court”) seeking, among other things,
an injunction against Facebook, Inc., and certain individuals to prohibit the dissemination of information
about the contested adoption of Baby Doe. These appeals follow from the entry of a preliminary injunction
granting K.G.S. the relief she seeks.

1

These appeals were assigned to Justice Bryan on February
15, 2019.

3a
I.

Preliminary Matters

The preliminary injunction that is the basis of
these appeals was entered on December 19, 2017. The
appeals taken from that order were timely filed within
14 days of the entry of that order, see Rule 4(a)(1)(A),
Ala. R. App. P., and on February 9, 2018, this Court received notice from the trial-court clerk certifying the
record on appeal as complete on February 6, 2018.
Since that time, K.G.S. has engaged in repeated efforts
to have the record on appeal supplemented with matters that were not before the trial court at the time it
entered the injunction at issue in these appeals, purportedly pursuant to Rule 10(f ), Ala. R. App. P. The
trial court has facilitated K.G.S.’s efforts by granting
her motions to supplement the record to include matters that were not before the trial court at the time it
entered the preliminary injunction, such as a second
amended complaint filed by K.G.S. on March 12, 2018,
transcripts of depositions taken long after the entry of
the preliminary injunction at issue on appeal and after
the record was certified as complete on February 6,
2018,2 and e-mails and letters from 2015 that, K.G.S.
says, support the preliminary injunction.
It is well settled that Rule 10(f ) cannot be used to
supplement the record on appeal to include matters
that were not before the trial court at the time the order being appealed was entered. See Cowen v. M.S. Enters., Inc., 642 So. 2d 453, 455 (Ala. 1994) (holding that
2

One such deposition was taken on March 1, 2019, approximately 15 months after the entry of the preliminary injunction.

4a
Rule 10(f ) “was not intended to allow the inclusion of
material in the record on appeal that had not been before the trial court” and concluding that the trial court
erred in granting the appellant’s Rule 10(f ) motion to
supplement the record with evidence that was not provided to the trial court before it entered the judgment
supporting the appeal); and Houston Cty. Health Care
Auth. v. Williams, 961 So. 2d 795, 810 n.8 (Ala. 2006)
(“Rule 10(f ) does not allow . . . for the addition to the
record on appeal of matters not before the trial court
when it entered its decision. . . .”). Accordingly, we conclude that the trial court erred by granting K.G.S.’s motions to supplement the record on appeal to include
matters that were not before the trial court at the time
it entered the preliminary injunction at issue in these
appeals. For purposes of deciding the merits of these
appeals, we have considered only the evidence and arguments that were presented to the trial court at the
time the preliminary injunction was entered.
Additionally, K.G.S. filed a motion in this Court
seeking leave to file a “sur-reply brief,” purportedly for
the purpose of “further assist[ing] the [Court] in its determination” of the issues presented by these appeals.
After reviewing the briefs and arguments filed by
the parties pursuant to Rule 28, Ala. R. App. P., and
the proposed “sur-reply brief ” from K.G.S., we deny
K.G.S.’s request for leave to file a “sur-reply brief.” See
note 15, infra.

5a
II.

Background Facts3 and Procedural History

In June 2015, K.G.S. filed a petition in the Mobile
Probate Court to adopt Baby Doe, and, shortly thereafter, the birth mother filed a contest to K.G.S.’s petition
for adoption.4 The birth mother subsequently came in
contact with Mirah Riben, “a well-known critic of the
United States’ adoption system” and a contributor to
the Huffington Post. The birth mother shared with Riben her version of the events that led her to contest
K.G.S.’s petition to adopt Baby Doe. On July 7, 2015,
the Huffington Post, which K.G.S. describes as “a
prominent media outlet,” published two online articles
about Baby Doe’s adoption that included the full name
of the birth mother; identified K.G.S. by her full name
as the prospective adoptive mother of Baby Doe; identified Baby Doe by the name the birth mother had
given Baby Doe; and included photographs of Baby
Doe. The articles detailed how, after signing a pre-birth
consent to allow K.G.S. to adopt Baby Doe, the birth
3

The background facts are taken from allegations in K.G.S.’s
first amended complaint, which was the controlling complaint at
the time the preliminary injunction was entered.
4
The details of the adoption contest were set forth by the
Court of Civil Appeals in a decision affirming a summary judgment in favor of K.G.S. on the birth mother’s adoption contest.
See K.L.R. v. K.G.S., 264 So. 3d 65 (Ala. Civ. App. 2018) (opinion
on application for rehearing) (cert. denied, May 11, 2018). That
decision states that physical custody of Baby Doe was removed
from the birth mother and transferred to K.G.S. on June 17, 2015,
and that the Mobile Probate Court entered a final decree of adoption in favor of K.G.S. on August 24, 2016. Thus, the adoption
contest was no longer pending in the Mobile Probate Court when
this action was filed in July 2017.

6a
mother notified K.G.S. and K.G.S.’s attorney, before
Baby Doe was born, that she had changed her mind
about allowing Baby Doe to be adopted; the birth
mother, however, never legally withdrew the pre-birth
consent to adoption, and K.G.S. obtained custody of
and filed a petition to adopt Baby Doe approximately
three weeks after Baby Doe was born.
The day after the articles were published, Claudia
D’Arcy, a resident of New York state, created a page on
Facebook’s social-media Web site dedicated to reuniting the birth mother and Baby Doe (“the Facebook
page”), which “attached” the articles published by the
Huffington Post. The Facebook page also included
K.G.S.’s full name and a “number” of photographs of
Baby Doe, who was then in the custody of K.G.S. See
note 4, supra. After the creation of the Facebook page,
K.G.S. was “inundated with appallingly malicious and
persistent cyber-bullying.” In a letter dated July 28,
2015, K.G.S.’s attorney notified Facebook that the Facebook page needed to be removed because it was
in violation of the Alabama Adoption Code, § 26-10A-1
et seq., Ala. Code 1975 (“the Adoption Code”), which,
the attorney said, prohibits the disclosure of “any
matters concerning an adoption, including parties’ actual names.” Facebook removed the “cover photo, but
refused to delete the [Facebook] page or otherwise prevent it from disseminating its harmful and false message.”
On July 7, 2017, approximately two years after the
Huffington Post published the articles about Baby
Doe’s adoption and D’Arcy created the Facebook page,

7a
K.G.S., individually and as the guardian and next friend
of Baby Doe, filed an action in the trial court naming
Facebook, D’Arcy, Kim McLeod, and Renee Gelin as
defendants.5 K.G.S. filed her first amended complaint
on October 20, 2017, adding Jennifer L. Wachowski
as a defendant. The first amended complaint alleged
that, after K.G.S. filed her adoption petition, D’Arcy,
McLeod, Gelin, and Wachowski (hereinafter referred to
collectively as “the individual defendants”) realized the
birth mother was unlikely to succeed in her adoption
contest based on Alabama law; that the individual defendants then “conspired to create a sensationalized,
salacious, and scandal-driven trial in the court of public opinion to pressure K.G.S. into relinquishing her
custody of Baby Doe”; and that Riben “quickly ran with
[the birth mother]’s tale of events that combined [Riben]’s biased agenda . . . [with the] nefarious publicitystunt strategy” of the individual defendants. K.G.S.
alleged that McLeod, Gelin, and Wachowski were instrumental in “publicizing” the Facebook page created
by D’Arcy and that Gelin and Wachowski, “through
their respective blogs . . . , various Facebook posts, and
. . . YouTube videos, further publicized the private, confidential adoption of Baby Doe.” K.G.S. further alleged
that the Facebook page is “persistently updated with
various posts, news articles, and YouTube videos at
K.G.S.’s expense” and that several videos streamed
online by YouTube and posted on the Facebook page
5

The trial court initially granted K.G.S.’s motion to seal the
proceedings below; however, the trial court later unsealed the
case but marked the case “confidential.”

8a
include Gelin, McLeod, and Wachowski, “all of whom
attended and/or participated in filming that took place
in Jefferson County.” K.G.S. further claimed that the
individual defendants, through the Facebook page,
have made her “the poster-child for ‘predatory’ adoptions in the United States.”
K.G.S. brought claims alleging negligence per se
based on each defendants’ violation of certain provisions of the Adoption Code that, she said, “explicitly or
implicitly prohibit the public disclosure of matters concerning adoptions”; two counts of invasion of privacy
(misappropriation and false light) against the individual defendants only; the tort of outrage/intentional infliction of emotional distress; conspiracy; negligence;
and wantonness. The complaint further alleged that
Facebook is incorporated in Delaware with its principal place of business in Menlo Park, California; that
Gelin is a resident of Pasco County, Florida; that
McLeod is a resident of Mobile County; and that
Wachowski is a resident of Waupaca County, Wisconsin.
McLeod and Gelin filed separate motions to dismiss the complaint pursuant to Rule 12(b)(6), Ala. R.
Civ. P., arguing that K.G.S.’s complaint failed to state a
claim against them. Facebook filed a motion to dismiss
pursuant to Rule 12(b)(2), (3), and (6), Ala. R. Civ. P.,
arguing that the trial court lacked personal jurisdiction over Facebook; that Facebook had immunity as to
each of the claims asserted by K.G.S. pursuant to
the Communications Decency Act of 1996, 47 U.S.C.
§ 230; that K.G.S.’s claims are barred under the First

9a
Amendment to the United States Constitution; and
that venue was improper in Jefferson County, Alabama. Facebook’s motion to dismiss was supported by
an affidavit from Michael Duffey, a Facebook employee.
He testified that Facebook is a Delaware corporation
with its principal place of business in Menlo Park, California; that the Facebook Web site and mobile application are available for users to access anywhere in the
country (or the world) where there is an Internet connection; that individuals in all 50 states have accounts
with Facebook; that Facebook is qualified to do business in all 50 states; and that Facebook has no offices,
property, or employees located in Alabama.
On September 20, 2017, before K.G.S. amended
her original complaint, Gelin filed an “amended” motion to dismiss K.G.S.’s complaint. In addition to reasserting that the claims against her were due to be
dismissed pursuant to Rule 12(b)(6), Gelin also asserted for the first time that the claims were due to be
dismissed because the trial court lacked personal jurisdiction over her. See Rule 12(b)(2). Gelin did not attach an affidavit or any other evidence to support her
lack-of-personal-jurisdiction defense at that time.
On October 12, 2017, K.G.S., individually and in
her capacity as guardian and next friend of Baby Doe,
filed a motion for a preliminary injunction pursuant to
Rule 65, Ala. R. Civ. P. K.G.S. sought an order requiring
Facebook and D’Arcy to deactivate the Facebook page
and an order enjoining D’Arcy and McLeod “from discussing matters surrounding . . . this lawsuit until the
instant proceeding is fully litigated and resolved.”

10a
K.G.S. alleged that the invasion of her and Baby Doe’s
privacy was an irreparable injury, that she had a reasonable chance of success on the merits of her invasionof-privacy claim, and that the benefit to her and Baby
Doe of removing the source of the principal disseminator of “illegal information” – the Facebook page – far
exceeded any burden imposed on the defendants. The
motion for a preliminary injunction did not mention
Gelin or Wachowski.
After K.G.S. filed her first amended complaint on
October 20, 2017, discussed supra, Facebook filed a
motion to dismiss the amended complaint and a motion opposing the preliminary injunction. Gelin also
filed a motion to dismiss the first amended complaint,
reasserting Rule 12(b)(2) and (6) as the grounds for dismissal. Gelin attached an affidavit to support her contention that the trial court lacked personal jurisdiction
over her.6
On November 29, 2017, K.G.S. filed a motion opposing the motions to dismiss filed by Facebook, Gelin,
and McLeod. K.G.S. argued that Gelin’s motion to dismiss for lack of personal jurisdiction was due to be denied because (1) she waived any defect in personal
jurisdiction because she failed to raise that defense in
her first Rule 12(b) motion to dismiss and (2) even if
6

The affidavit stated that Gelin is a resident of Florida and
has never lived in Alabama; that she has never done business in
Alabama; that she has never traveled to or through Alabama, including to film a YouTube video; and that she does not author a
“blog,” a Web site, or any other publication directed to residents
of Alabama.

11a
the defense was not waived, Gelin was subject to personal jurisdiction in Alabama based on the effects in
Alabama of her conduct. Gelin filed a response addressing both arguments asserted by K.G.S. and filed
a second affidavit to support her argument that she did
not have minimum contacts with Alabama to support
personal jurisdiction.
In support of her contention that the trial court
had personal jurisdiction over Facebook, K.G.S. attached evidence indicating that Facebook was notified
– via two letters from K.G.S.’s attorney and a separately filed report of harassment to Facebook filed by
K.G.S. – of the existence of the Facebook page, its
harmful effects, and its alleged violation of Alabama
law; that Facebook responded to K.G.S.’s attorney stating that it would review K.G.S.’s complaints but never
“followed up” with K.G.S.’s attorney; and that, in response to K.G.S.’s report of harassment to Facebook,
Facebook initially notified K.G.S. that it had removed
a photograph of Baby Doe from the Facebook page because the photograph violated Facebook’s “community
standards” but almost immediately reversed course
and notified K.G.S. by e-mail that the photograph of
Baby Doe did not violate its community standards. In
a letter dated July 28, 2015, K.G.S.’s attorney specifically notified Facebook that its “actions have had an
adverse affect on the health and well-being” of K.G.S.
K.G.S. argued that “the exercise of jurisdiction over Facebook is proper based on the ‘effects’ of its conscious,
out-of-state conduct in Alabama.”

12a
The record indicates that the trial court conducted
a hearing on the pending motions to dismiss on November 30, 2017. During that hearing, K.G.S. provided
the trial court with an affidavit to support her request
for a preliminary injunction, which verified some of
her pleadings and set forth the harm K.G.S. and Baby
Doe allegedly had suffered because of the information
posted on the Facebook page. A transcript of that hearing is not included in the record on appeal.
On December 18, 2017, the trial court entered separate orders denying the motions to dismiss filed by
Facebook, Gelin, and McLeod. The following day, the
trial court entered a preliminary injunction ordering
Facebook and D’Arcy to deactivate the Facebook page
and enjoining D’Arcy, Gelin, and McLeod “from publicly discussing, in any way whatsoever, matters surrounding the adoption of Baby Doe and this lawsuit in
any public forum.” Pursuant to Rule 4(a)(1)(A), which
allows an appeal from an order granting an injunction,
Facebook, Gelin, and McLeod separately appealed.7 We
consolidated the appeals for the purpose of issuing one
opinion.
III.
A.

Analysis

Appeal No. 1170244 – Facebook

Facebook raises multiple challenges to the propriety of the preliminary injunction. First, Facebook
7

D’Arcy did not appeal the trial court’s injunction requiring
her to deactivate the Facebook page.

13a
argues that the trial court had no authority to enter an
injunction requiring it to deactivate the Facebook page
because, Facebook argues, the trial court lacks personal jurisdiction over it. Although our review of the
trial court’s determination that it had personal jurisdiction is before us on appeal from the entry of a preliminary injunction, we will apply the same standard
of review that we use when reviewing the denial of a
motion to dismiss for lack of personal jurisdiction.
“ ‘ “ ‘An appellate court considers de
novo a trial court’s judgment on a
party’s motion to dismiss for lack of
personal jurisdiction.’ ” Ex parte Lagrone, 839 So. 2d 620, 623 (Ala. 2002)
(quoting Elliott v. Van Kleef, 830 So.
2d 726, 729 (Ala. 2002)). Moreover,
“[t]he plaintiff bears the burden of
proving the court’s personal jurisdiction over the defendant.” Daynard v.
Ness, Motley, Loadholt, Richardson &
Poole, P.A., 290 F.3d 42, 50 (1st Cir.
2002).’
“Ex parte Dill, Dill, Carr, Stonbraker & Hutchings, P.C., 866 So. 2d 519, 525 (Ala. 2003).
“ ‘ “In considering a Rule 12(b)(2), Ala.
R. Civ. P., motion to dismiss for want
of personal jurisdiction, a court must
consider as true the allegations of
the plaintiff ’s complaint not controverted by the defendant’s affidavits,
Robinson v. Giarmarco & Bill, P.C.,
74 F.3d 253 (11th Cir. 1996), and

14a
Cable/Home Communication Corp. v.
Network Productions, Inc., 902 F.2d
829 (11th Cir. 1990), and ‘where the
plaintiff ’s complaint and the defendant’s affidavits conflict, the . . . court
must construe all reasonable inferences in favor of the plaintiff.’ Robinson, 74 F.3d at 255 (quoting Madara
v. Hall, 916 F.2d 1510, 1514 (11th Cir.
1990)).” ’
“Wenger Tree Serv. v. Royal Truck & Equip.,
Inc., 853 So. 2d 888, 894 (Ala. 2002) (quoting
Ex parte McInnis, 820 So. 2d 795, 798 (Ala.
2001)). However, if the defendant makes a prima
facie evidentiary showing that the Court has
no personal jurisdiction, ‘the plaintiff is then
required to substantiate the jurisdictional allegations in the complaint by affidavits or
other competent proof, and he may not merely
reiterate the factual allegations in the complaint.’ Mercantile Capital, LP v. Federal
Transtel, Inc., 193 F. Supp. 2d 1243, 1247
(N.D. Ala. 2002) (citing Future Tech. Today,
Inc. v. OSF Healthcare Sys., 218 F.3d 1247,
1249 (11th Cir. 2000)). See also Hansen v.
Neumueller GmbH, 163 F.R.D. 471, 474-75 (D.
Del. 1995) (‘When a defendant files a motion
to dismiss pursuant to Fed. R. Civ. P. 12(b)(2),
and supports that motion with affidavits,
plaintiff is required to controvert those affidavits with his own affidavits or other competent evidence in order to survive the
motion.’) (citing Time Share Vacation Club v.

15a
Atlantic Resorts, Ltd., 735 F.2d 61, 63 (3d Cir.
1984)).”
Ex parte Covington Pike Dodge, Inc., 904 So. 2d 226,
229-30 (Ala. 2004).
It is well settled that Alabama’s long-arm rule,
Rule 4.2, Ala. R. Civ. P., “extends the personal jurisdiction of Alabama courts to the limit of due process under
the United States and Alabama Constitutions,” Hiller
Invs., Inc. v. Insultech Grp., Inc., 957 So. 2d 1111, 1115
(Ala. 2006), and that the due process guaranteed under
the Alabama Constitution is coextensive with the due
process guaranteed by the United States Constitution.
“It has long been established that the Fourteenth
Amendment [to the United States Constitution] limits
the personal jurisdiction of state courts.” Bristol-Myers
Squibb Co. v. Superior Court of California, 582 U.S. ___,
___, 137 S.Ct. 1773, 1779 (2017). Thus, we must determine if the trial court’s assertion of personal jurisdiction over Facebook comports with due process of law
as guaranteed by the Fourteenth Amendment to the
United States Constitution. See generally Ex parte International Creative Mgmt. Partners, LLC, 258 So. 3d
1111, 1114-15 (Ala. 2018).
“The Due Process Clause of the Fourteenth Amendment permits a forum state to
subject a nonresident defendant to its courts
only when that defendant has sufficient ‘minimum contacts’ with the forum state. International Shoe Co. v. Washington, 326 U.S. 310,
316, 66 S.Ct. 154, 90 L.Ed. 95 (1945). The critical question with regard to the nonresident

16a
defendant’s contacts is whether the contacts
are such that the nonresident defendant
‘ “should reasonably anticipate being haled
into court” ’ in the forum state. Burger King
Corp. v. Rudzewicz, 471 U.S. 462, 473, 105
S.Ct. 2174, 85 L.Ed. 2d 528 (1985), quoting
World-Wide Volkswagen Corp. v. Woodson,
444 U.S. 286, 295, 100 S.Ct. 559, 62 L.Ed. 2d
490 (1980).”
Elliott v. Van Kleef, 830 So. 2d 726, 730 (Ala. 2002).
Since the United States Supreme Court’s decision
in International Shoe Co. v. Washington, 326 U.S. 310
(1945), two types of personal jurisdiction have been
recognized: “ ‘general’ (sometimes called ‘all-purpose’)
jurisdiction and ‘specific’ (sometimes called ‘caselinked’) jurisdiction.” Bristol-Myers Squibb, 582 U.S. at
___, 137 S.Ct. at 1780.
“In the case of either general in personam
jurisdiction or specific in personam jurisdiction, ‘[t]he “substantial connection” between
the defendant and the forum state necessary
for a finding of minimum contacts must come
about by an action of the defendant purposefully directed toward the forum State.’ Asahi
Metal Indus. Co. v. Superior Court of California, 480 U.S. 102, 112, 107 S.Ct. 1026, 94 L.Ed.
2d 92 (1987). This purposeful-availment requirement assures that a defendant will not
be haled into a jurisdiction as a result of ‘ “the
unilateral activity of another person or a third
person.” ’ Burger King [Corp. v. Rudzewicz],
471 U.S. [462,] 475, 105 S.Ct. 2174 [(1985)],
quoting Helicopteros Nacionales de Colombia,

17a
S.A. v. Hall, 466 U.S. 408, 417, 104 S.Ct. 1868,
80 L.Ed. 2d 404 (1984).”
Elliott, 830 So. 2d at 731.
K.G.S. argued below that the trial court had both
general and specific jurisdiction over Facebook, and
the trial court did not indicate whether the jurisdiction
it was exercising over Facebook was general or specific.
Facebook argues that the trial court had neither general nor specific jurisdiction. We will address each basis for the trial court’s potential exercise of personal
jurisdiction over Facebook.
1.

General Jurisdiction

In BNSF Railway Co. v. Tyrell, 581 U.S. ___, 137
S.Ct. 1549 (2017), the United States Supreme Court
summarized the minimum requirements of due process as it relates to a state court’s exercise of general
jurisdiction over a foreign corporation:
“Goodyear [Dunlop Tires Operations, S.A.
v. Brown, 564 U.S. 915 (2011),] and Daimler
[AG v. Bauman, 571 U.S. 117 (2014),] clarified
that ‘[a] court may assert general jurisdiction
over foreign (sister-state or foreign-country)
corporations to hear any and all claims
against them when their affiliations with the
State are so “continuous and systematic” as
to render them essentially at home in the forum State.’ Daimler, 571 U.S., at 127 (quoting
Goodyear, 564 U.S., at 919). The ‘paradigm’
forums in which a corporate defendant is
‘at home,’ we explained, are the corporation’s

18a
place of incorporation and its principal place
of business. Daimler, 571 U.S., at 137; Goodyear, 564 U.S., at 924. The exercise of general
jurisdiction is not limited to these forums; in
an ‘exceptional case,’ a corporate defendant’s
operations in another forum ‘may be so substantial and of such a nature as to render the
corporation at home in that State.’ Daimler,
571 U.S., at 138, n. 19. We suggested that Perkins v. Benguet Consol. Mining Co., 342 U.S.
437 (1952), exemplified such a case. Daimler,
571 U.S., at 138, n. 19. In Perkins, war had
forced the defendant corporation’s owner to
temporarily relocate the enterprise from the
Philippines to Ohio. 342 U.S., at 447-448. Because Ohio then became ‘the center of the corporation’s wartime activities,’ Daimler, 571
U.S., at 130, n. 8, suit was proper there, Perkins, 342 U.S., at 448.”
581 U.S. at ___, 137 S.Ct. at 1558.
In the present case, there are no factual allegations in the amended complaint to support the trial
court’s exercise of general jurisdiction over Facebook.
Nevertheless, Facebook submitted undisputed evidence
that it is not incorporated in Alabama and does not
maintain its principal place of business in Alabama.
Facebook also presented undisputed evidence that it
had no offices, property, or employees located in Alabama, and, thus, it presented prima facie evidence that
this was not an “exceptional case” where its operations
in Alabama were “ ‘so substantial and of such a nature
as to render [Facebook] at home in [Alabama].’ ” Id.

19a
(quoting Daimler AG v. Bauman, 571 U.S. 117, 138
n. 19 (2014)).
Although K.G.S. did not provide any evidence to
rebut Facebook’s evidence in this regard, she cites two
federal district court decisions8 that predate the Supreme Court’s decisions in Daimler, Goodyear Dunlop
Tires Operations, S.A. v. Brown, 564 U.S. 915 (2011),
and BNSF, and she argues that Facebook is subject to
general jurisdiction in Alabama because it is registered to do business in Alabama. However, in both
Daimler and BNSF, the Supreme Court made it abundantly clear that any precedent that supported the notion that the exercise of general jurisdiction could be
based on a simple assertion that an out-of-state corporation does business in the forum state has become obsolete. In BNSF, the Court held that the nonresident
defendant corporation was not “at home” in the forum
state, and thus not subject to general personal jurisdiction there, despite the fact that the defendant was
8

See Haney v. Floyd Healthcare Mgmt., Inc., No. 4:08-CV2393-VEH (N.D. Ala. April 16, 2009) (not selected for publication
in F. Supp.) (finding the existence of general personal jurisdiction
in Alabama over an [sic] nonresident corporation that was registered to do business in Alabama and had five employees working
at a primary-care facility in Alabama that was operated by the
foreign corporation); and Johnston v. Foster-Wheeler Constructors, Inc., 158 F.R.D. 496, 503 (M.D. Ala. 1994) (holding that a
nonresident defendant had continuous and systematic contacts
with the State of Alabama and that the defendant “could reasonably have foreseen being haled into court because it qualified to
do business and performed construction work in Alabama and
hired the Plaintiff, an Alabama resident, to work on the Florida
construction site”).

20a
“doing business” in the forum state, because the defendant was not incorporated in the forum state and it
did not maintain its principal place of business in the
forum state. The Court also held that the defendant
was not “so heavily engaged in activity in [the forum
state] ‘as to render [it] essentially at home’ in that
State,” despite the fact that the defendant had over
2,000 miles of railroad track and more than 2,000 employees working in the forum state. BNSF, 581 U.S. at
___, 137 S.Ct. at 1559. In making that determination,
the Court looked to the entirety of the defendant’s activities and concluded that “ ‘[a] corporation that operates in many places can scarcely be deemed at home in
all of them.’ ” Id. (quoting Daimler, 571 U.S. at 139
n. 20).9 See also Daimler, 571 U.S. at 130 n. 8 (noting
that the Court’s recognition of general jurisdiction in
Perkins “ ‘should be regarded as a decision on its exceptional facts, not as a significant reaffirmation of
obsolescing notions of general jurisdiction’ based on
nothing more than a corporation’s ‘doing business’ in
a forum” (quoting Arthur T. von Mehren & Donald T.
Trautman, Jurisdiction to Adjudicate: A Suggested
Analysis, 79 Harv. L. Rev. 1121, 1144 (1966))).

9

Facebook also presented undisputed evidence that it was
qualified to do business in every state. As noted above, in Daimler
the Supreme Court noted that “[a] corporation that operates in
many places can scarcely be deemed ‘at home’ in all of them. Otherwise, ‘at home’ would be synonymous with ‘doing business’ tests
framed before specific jurisdiction evolved in the United States.”
571 U.S. at 139 n. 20 (citing Arthur T. von Mehren & Donald T.
Trautman, Jurisdiction to Adjudicate: A Suggested Analysis, 79
Harv. L. Rev. 1121, 1142-44 (1966)).

21a
Thus, we conclude that the Supreme Court has
firmly rejected any notion that a nonresident defendant’s “doing business” in a forum state is sufficient, in
and of itself, to subject the out-of-state defendant to the
general personal jurisdiction of the forum state. Accordingly, because K.G.S. pleaded no facts in support of
general jurisdiction and Facebook presented undisputed evidence that it was not incorporated in Alabama, that its principal place of business was not in
Alabama, and that its operations in Alabama are not
so substantial or of such a nature as to render it “at
home” in Alabama, we conclude that the Fourteenth
Amendment does not allow for the trial court’s exercise
of general jurisdiction over Facebook in the present
case.
2.

Specific Jurisdiction

Although the question of general jurisdiction looks
to whether an out-of-state defendant is essentially “at
home” in the forum state, the question of specific jurisdiction concerns whether the underlying controversy
“ ‘arises out of or relate[s] to the defendant’s contacts
with the forum.’ ” Daimler, 571 U.S. at 127 (quoting
Helicopteros Nacionales de Columbia [sic], S.A. v. Hall,
466 U.S. 408, 414 n. 8 (1984)).
“Specific jurisdiction . . . depends on an ‘affiliatio[n] between the forum and the underlying
controversy,’ principally, activity or an occurrence that takes place in the forum State
and is therefore subject to the State’s regulation. von Mehren & Trautman, Jurisdiction to

22a
Adjudicate: A Suggested Analysis, 79 Harv. L.
Rev. 1121, 1136 (1966) (hereinafter von Mehren
& Trautman); see Brilmayer et al., A General
Look at General Jurisdiction, 66 Texas L. Rev.
721, 782 (1988). . . . In contrast to general, allpurpose jurisdiction, specific jurisdiction is
confined to adjudication of ‘issues deriving
from, or connected with, the very controversy
that establishes jurisdiction.’ von Mehren &
Trautman 1136.”
Goodyear, 564 U.S. at 919.
In Walden v. Fiore, 571 U.S. 277, 291 (2014), the
Supreme Court summarized the minimum contacts
necessary for the exercise of specific jurisdiction over a
nonresident defendant:
“The inquiry whether a forum State may assert specific jurisdiction over a nonresident
defendant ‘focuses on “the relationship among
the defendant, the forum, and the litigation.” ’
Keeton v. Hustler Magazine, Inc., 465 U.S.
770, 775 (1984) (quoting Shaffer v. Heitner,
433 U.S. 186, 204 (1977)). For a State to exercise jurisdiction consistent with due process,
the defendant’s suit-related conduct must create a substantial connection with the forum
State. Two related aspects of this necessary
relationship are relevant in this case.
“First, the relationship must arise out of
contacts that the ‘defendant himself ’ creates
with the forum State. Burger King Corp. v.
Rudzewicz, 471 U.S. 462, 475 (1985). Due process
limits on the State’s adjudicative authority

23a
principally protect the liberty of the nonresident defendant – not the convenience of plaintiffs or third parties. See World-Wide Volkswagen
Corp. [v. Woodson, 444 U.S. 286,] 291-292
[(1980)]. We have consistently rejected attempts to satisfy the defendant-focused ‘minimum contacts’ inquiry by demonstrating
contacts between the plaintiff (or third parties) and the forum State. See Helicopteros
Nacionales de Colombia, S.A. v. Hall, 466 U.S.
408, 417 (1984) (‘[The] unilateral activity of
another party or a third person is not an appropriate consideration when determining
whether a defendant has sufficient contacts
with a forum State to justify an assertion of
jurisdiction’). . . . Put simply, however significant the plaintiff ’s contacts with the forum
may be, those contacts cannot be ‘decisive in
determining whether the defendant’s due process rights are violated.’ Rush [v. Savchuk],
444 U.S. [320,] 332 [(1980)].
“Second, our ‘minimum contacts’ analysis
looks to the defendant’s contacts with the forum State itself, not the defendant’s contacts
with persons who reside there. See, e.g., International Shoe [Co. v. Washington, 326 U.S.
310,] 319 [(1945)] (Due process ‘does not contemplate that a state may make binding a
judgment in personam against an individual
. . . with which the state has no contacts, ties,
or relations’); Hanson [v. Denckla, 357 U.S.
235,] 251 [(1958)] (‘However minimal the burden of defending in a foreign tribunal, a defendant may not be called upon to do so unless
he has had the “minimal contacts” with that

24a
State that are a prerequisite to its exercise of
power over him’). Accordingly, we have upheld
the assertion of jurisdiction over defendants
who have purposefully ‘reach[ed] out beyond’
their State and into another by, for example,
entering a contractual relationship that ‘envisioned continuing and wide-reaching contacts’
in the forum State, Burger King, supra, at
479-480, or by circulating magazines to ‘deliberately exploi[t]’ a market in the forum State,
Keeton, supra, at 781. And although physical
presence in the forum is not a prerequisite to
jurisdiction, Burger King, supra, at 476, physical entry into the State – either by the defendant in person or through an agent, goods,
mail, or some other means – is certainly a relevant contact. See, e.g., Keeton, supra, at 773774.
“But the plaintiff cannot be the only link
between the defendant and the forum. Rather,
it is the defendant’s conduct that must form
the necessary connection with the forum State
that is the basis for its jurisdiction over him.
See Burger King, supra, at 478 (‘If the question is whether an individual’s contract with
an out-of-state party alone can automatically
establish sufficient minimum contacts in the
other party’s home forum, we believe the answer clearly is that it cannot’); Kulko v. Superior Court of Cal., City and County of San
Francisco, 436 U.S. 84, 93 (1978) (declining
to ‘find personal jurisdiction in a State . . .
merely because [the plaintiff in a child support action] was residing there’). To be sure, a
defendant’s contacts with the forum State

25a
may be intertwined with his transactions or
interactions with the plaintiff or other parties.
But a defendant’s relationship with a plaintiff
or third party, standing alone, is an insufficient basis for jurisdiction. See Rush, supra,
at 332 (‘Naturally, the parties’ relationships
with each other may be significant in evaluating their ties to the forum. The requirements
of International Shoe, however, must be met
as to each defendant over whom a state court
exercises jurisdiction’). Due process requires
that a defendant be haled into court in a forum State based on his own affiliation with
the State, not based on the ‘random, fortuitous, or attenuated’ contacts he makes by interacting with other persons affiliated with
the State. Burger King, 471 U.S. at 475 (internal quotation marks omitted).”
571 U.S. at 283-86.
Facebook argues that K.G.S. failed to demonstrate
that any of its suit-related conduct created sufficient
minimum contacts with Alabama for the exercise of
specific jurisdiction. The only “conduct” of Facebook described in the first amended complaint is that “Facebook removed the [Facebook] page’s cover photo, but
refused to delete the [Facebook] page or otherwise prevent [the Facebook page] from disseminating its harmful and false message.” The first amended complaint
alleged that this action (or inaction) came in response
to the July 2015 letter to Facebook from K.G.S.’s attorney; K.G.S.’s affidavit clarified that she received responses from Facebook after she filed a report of

26a
harassment with Facebook regarding the Facebook
page. K.G.S. also submitted evidence indicating that
Facebook sent her attorney a “form” response after he
contacted Facebook to ask that the Facebook page be
removed in which Facebook stated that it would “look
into [the] matter shortly.”10
K.G.S. argues that this “conduct” was sufficient to
establish specific jurisdiction over Facebook in Alabama. Specifically, she argues that “Facebook acted
intentionally, knowingly, and expressly in aiming its
conduct toward Alabama in a manner that caused
harm to a particular Alabama citizen . . . after it responded multiple times to Alabama citizens and took
and/or failed to take certain actions with respect to
[the] Facebook page that wholly pertained to an Alabama adoption.” K.G.S.’s brief, at 25. She contends
that, pursuant to Calder v. Jones, 465 U.S. 783 (1984),
the trial court can exercise specific jurisdiction over Facebook so long as (1) Facebook committed an intentional tort, (2) Facebook’s intentional conduct was
expressly aimed at Alabama, (3) the brunt of the harm
caused by Facebook’s intentional conduct was suffered
in Alabama, and (4) Facebook knew the harm from its

10

Facebook presented undisputed evidence that it had no offices or employees in Alabama, and K.G.S. presented no evidence
in rebuttal to demonstrate that Facebook’s removal of the cover
photograph from the Facebook page or its decision not to delete
the Facebook page occurred in Alabama.

27a
intentional conduct was likely to be suffered in Alabama.11
In Calder, an actress residing in California
brought an action in California alleging that two defendants, who were Florida residents, wrote and edited
a defamatory article about her, which was published in
11

Because the exercise of specific jurisdiction is based on an
analysis of the defendant’s suit-related conduct that was “purposefully directed” to the forum, we do not consider – and K.G.S.
has not asked us to consider – the general fact that the Facebook
Web site and mobile application are available for users in Alabama to access. This case does not arise out of or relate to the fact
that the Facebook Web site or mobile application is available to
be accessed by anyone in Alabama with an Internet connection.
As set forth above, the claim against Facebook arose out of Facebook’s failure to remove the Facebook page, which was created by
a resident of New York state, after it was notified of the allegedly
unlawful activity on the page and the harm it was causing. Notably, courts that have addressed the question have concluded that
the general accessibility of Facebook’s Web site or mobile application in a forum does not provide a sufficient connection to the
forum to support the exercise of general or specific jurisdiction.
See, e.g., Harrison v. Facebook, Inc., No. 18-0147-TFM-MU (S.D.
Ala. Jan. 17, 2019) (report and recommendation of magistrate
judge), report and recommendation adopted (S.D. Ala. March 8,
2019) (not reported in F. Supp.); Georgalis v. Facebook, Inc., 324
F. Supp. 3d 955 (N.D. Ohio 2018); Gullen v. Facebook.com, Inc.,
No. 15 C 7681 (N.D. Ill. Jan. 21, 2016) (not reported in F. Supp.)
(holding that because the plaintiff failed to allege that Facebook
“targets its alleged biometric collection activities at Illinois residents, the fact that its site is accessible to Illinois residents does
not confer specific jurisdiction over Facebook”). See also Advanced
Tactical Ordnance Sys., LLC v. Real Action Paintball, Inc., 751
F.3d 796, 803 (7th Cir. 2014) (holding that an online merchant’s
operation of an interactive Web site, in and of itself, is insufficient
to confer specific jurisdiction over the merchant in every state
from which the Web site can be accessed).

28a
a national magazine that had its largest circulation
in California. The United States Supreme Court held
that California had personal jurisdiction over the two
Florida defendants “based on the ‘effects’ of their Florida conduct in California.” Calder, 465 U.S. at 789. This
was so, the Court held, because the defendants were
“not charged with mere untargeted negligence,” but,
instead, their “intentional, and allegedly tortious, actions were expressly aimed at California.” Id. (emphasis added). The Court found that California was “the
focal point both of the story and of the harm suffered.”
Id. at 789. The defendants’ defamatory article was “expressly aimed” at California because it “concerned the
California activities of a California resident,” it was
“drawn from California sources,” and it caused the
plaintiff to suffer “the brunt of the harm” in California,
where the magazine had its largest circulation. Id. at
788-89. The defendants knew that “the brunt of that
injury would be felt by respondent in the State in
which she lives and works and in which [the national
magazine] has its largest circulation.” Id. at 789-90.
Thus, the Court held, the defendants “must ‘reasonably
anticipate being haled into court’ [in California] to answer for the truth of the statements made in their article.” Id. at 790.
Thirty years after issuing its decision in Calder,
the Supreme Court revisited and clarified that decision
in Walden. In Walden, the defendant, a Georgia police
officer, was working as a deputized agent of the Drug
Enforcement Administration at an airport in Atlanta.
The plaintiffs had flown from Puerto Rico to Atlanta,

29a
where they planned to take a connecting flight to Las
Vegas. The defendant was notified by officials in Puerto
Rico that the plaintiffs had approximately $97,000 in
cash in their carry-on luggage, and the defendant approached the plaintiffs as they were at their departure
gate for their flight to Las Vegas. After a drug-sniffing
dog inspected the plaintiffs’ luggage, the defendant
seized the cash and informed the plaintiffs that their
cash would be returned if they could provide a legitimate source for the cash, which, the plaintiffs had
explained, was their winnings from gambling. The
plaintiffs departed for Las Vegas without the cash; the
following day, the plaintiffs’ attorney in Nevada telephoned the defendant seeking a return of the plaintiffs’ cash. At some point thereafter, the defendant
drafted an affidavit, which, the plaintiffs’ alleged, was
false and misleading, to show probable cause for forfeiture of the funds; however, no forfeiture action was
ever filed, and the cash was later returned to the plaintiffs. The plaintiffs sued the Georgia defendant in Nevada, seeking money damages for, among other things,
the defendant’s wrongful seizure of their cash without
probable cause and willfully seeking forfeiture while
withholding exculpatory information.
The United States Court of Appeals for the Ninth
Circuit, applying the Calder “effects test,” held that
the Nevada court could exercise personal jurisdiction
over the nonresident defendant because he “ ‘expressly
aimed’ his submission of the allegedly false affidavit
at Nevada by submitting the affidavit with knowledge that it would affect persons with a ‘significant

30a
connection’ to Nevada.” Walden, 571 U.S. at 282. The
Ninth Circuit Court of Appeals further held that “the
delay in returning the funds to [the plaintiffs] caused
them ‘foreseeable harm’ in Nevada.” Id. In a unanimous decision authored by Justice Thomas, the United
States Supreme Court reversed the judgment of the
Court of Appeals and held that Nevada could not exercise personal jurisdiction over the defendant. The
Court discussed its decision in Calder at length and
stated that the “crux” of its holding in Calder was “that
the reputation-based ‘effects’ of the alleged libel connected the defendants to California, not just to the
plaintiff,” and that “[t]he strength of that connection
was largely a function of the nature of the libel tort.”
Id. at 287. The Court noted that in Calder “the ‘effects’
caused by the defendants’ article – i.e., the injury to
the plaintiff ’s reputation in the estimation of the California public – connected the defendants’ conduct to
California, not just to a plaintiff who lived there.” Id.
at 288. “That connection,” the Court held, “combined
with the various facts that gave the article a California
focus, sufficed to authorize the California court’s exercise of jurisdiction.” Id.
In applying those principles from Calder to the
facts in Walden, the Court in Walden concluded that
the defendant did not have sufficient minimum contacts with Nevada to justify the exercise of personal
jurisdiction in a Nevada court. The Court noted that
“no part of [the defendant’s] course of conduct occurred
in Nevada” and that the defendant “never traveled to,
conducted activities within, contacted anyone in, or

31a
sent anything or anyone to Nevada.” Id. at 288-89. “In
short,” the Court held, “when viewed through the
proper lens – whether the defendant’s actions connect
him to the forum – [the defendant] formed no jurisdictionally relevant contacts with Nevada.” Id. at 289. The
Court rejected the Court of Appeals’ basis for the exercise of personal jurisdiction, stating:
“The Court of Appeals reached a contrary
conclusion by shifting the analytical focus
from [the defendant]’s contacts with the forum to his contacts with [the plaintiffs]. See
Rush [v. Savchuk], 444 U.S. [320,] 332 [(1980)].
Rather than assessing [the defendant]’s own
contacts with Nevada, the Court of Appeals
looked to [the defendant]’s knowledge of [the
plaintiffs’] ‘strong forum connections.’ [Fiore
v. Walden,] 688 F.3d [558,] 577-579, 581 [(9th
Cir. 2012)]. In the court’s view, that knowledge,
combined with its conclusion that respondents suffered foreseeable harm in Nevada,
satisfied the ‘minimum contacts’ inquiry. Id.,
at 582.
“This approach to the ‘minimum contacts’
analysis impermissibly allows a plaintiff’s contacts with the defendant and forum to drive
the jurisdictional analysis. [The defendant]’s
actions in Georgia did not create sufficient
contacts with Nevada simply because he allegedly directed his conduct at plaintiffs whom
he knew had Nevada connections. Such reasoning improperly attributes a plaintiff ’s forum connections to the defendant and makes
those connections ‘decisive’ in the jurisdictional

32a
analysis. See Rush, supra, at 332. It also obscures the reality that none of petitioner’s
challenged conduct had anything to do with
Nevada itself.
“Relying on Calder, [the plaintiffs] emphasize that they suffered the ‘injury’ caused
by [the defendant]’s allegedly tortious conduct
(i.e., the delayed return of their gambling
funds) while they were residing in the forum.
Brief for Respondents 14. This emphasis is
likewise misplaced. As previously noted, Calder made clear that mere injury to a forum
resident is not a sufficient connection to the
forum. Regardless of where a plaintiff lives or
works, an injury is jurisdictionally relevant
only insofar as it shows that the defendant
has formed a contact with the forum State.
The proper question is not where the plaintiff
experienced a particular injury or effect but
whether the defendant’s conduct connects
him to the forum in a meaningful way.”
571 U.S. at 289-90 (footnote omitted; emphasis added).
Notably, the Court also rejected the notion that the
contacts of the plaintiffs’ Nevada attorney with the defendant in Georgia sufficed to create a contact between
the defendant and Nevada, stating that such a “contact” is “precisely the sort of ‘unilateral activity’ of a
third party that ‘cannot satisfy the requirement of contact with the forum State.’ ” Id. at 291 (quoting Hanson,
357 U.S. at 253). In sum, the Court held: “The proper
focus of the ‘minimum contacts’ inquiry in intentionaltort cases is ‘ “the relationship among the defendant,

33a
the forum, and the litigation.” ’ Calder, 465 U.S. at 788.
And it is the defendant, not the plaintiff or third parties, who must create contacts with the forum State.”
Walden, 571 U.S. at 291 (emphasis added).
K.G.S. cites several decisions from other jurisdictions applying Calder that, she says, support the trial
court’s exercise of jurisdiction over Facebook. However,
K.G.S. does not mention Walden in her brief on appeal,
and none of the authorities cited in K.G.S.’s brief apply
Walden, despite the fact that it is a unanimous decision
of the United States Supreme Court applying and clarifying Calder.12 Relying on that authority, K.G.S. argues that “Calder and its progeny make clear . . . that,
in addition to an affirmative act, there must be ‘something more’ that allows the court to conclude [that] the
12

See, e.g., Panavision Int’l L.P. v. Toeppen, 141 F.3d 1316
(9th Cir. 1998), and Intercon, Inc. v. Bell Atlantic Internet Solutions, Inc., 205 F.3d 1244 (10th Cir. 2000). Panavision is distinguishable from the present case because, in that case, although it
did not apply Walden, there was some evidence indicating that
the nonresident defendant aimed his trademark infringement at
California, where the movie and television industry is centered,
and not just at the plaintiff, a California business that held a registered trademark in connection with motion-picture camera
equipment and “promote[d] its trademarks through motion picture and television credits and other media advertising.” 141 F.3d
at 1319. Intercon, on the other hand, did not apply the Calder “effects test” to its minimum-contacts analysis; thus, it provides little support for K.G.S.’s position before this Court, which is bound
to apply both Calder and Walden to the facts of this case. Even
so, unlike the circumstances in this case, in Intercon there was
evidence indicating that the nonresident defendant purposefully
directed e-mail from its subscribers to the plaintiff ’s Oklahomabased server, thus making direct use of the plaintiff ’s property in
Oklahoma, the forum state.

34a
defendant knew or should have known that its tortious
conduct would have effects on certain individuals in
the forum state.” K.G.S.’s brief, at 21. However, the Supreme Court in Walden expressly rejected the notion
that specific jurisdiction may be exercised based on the
foreseeability of harm suffered in the forum state. See
Walden, 571 U.S. at 289. As noted above, the Ninth Circuit Court of Appeals cited the foreseeability of the
harm occurring in the forum as a basis for holding that
the Nevada court had specific jurisdiction over the
Georgia defendant, but the Supreme Court found that
“[t]his approach to the ‘minimum contacts’ analysis impermissibly allows a plaintiff ’s contacts with the defendant and forum to drive the jurisdictional analysis.”
Id. See also Axiom Foods, Inc. v. Acerchem Int’l, Inc.,
874 F.3d 1064, 1069-70 (9th Cir. 2017) (“In Walden, the
Supreme Court rejected our conclusion that the defendants’ ‘knowledge of [the plaintiffs’] “strong forum
connections,” ’ plus the ‘foreseeable harm’ the plaintiffs
suffered in the forum, comprised sufficient minimum
contacts. [571 U.S. at 288-89,] 134 S.Ct. at 1124-25 (citation omitted).”).
In light of the above, we cannot say that K.G.S.
demonstrated that Facebook’s suit-related conduct created a “substantial connection” with Alabama. To the
extent that K.G.S. relies on the contacts Facebook
made with K.G.S. and her attorney in response to the
complaints she and her attorney filed with Facebook
about the Facebook page, those contacts are insufficient to establish minimum contacts with Alabama. As
the Supreme Court stated in Walden: “[I]t is the defendant, not the plaintiff or third parties, who must

35a
create contacts with the forum State.” 571 U.S. at 291
(emphasis added). Facebook’s contacts with Alabama
that were made merely in response to K.G.S.’s or her
attorney’s contact with Facebook are “precisely the sort
of ‘unilateral activity’ of a third party that ‘cannot satisfy the requirement of contact with the forum State.’ ”
Id. at 291 (quoting Hanson, 357 U.S. at 253). Further,
to the extent that Facebook’s failure to act to remove
the Facebook page can be analyzed separately from the
responses it sent to K.G.S. and her attorney, we can
only conclude that this intentional conduct was expressly aimed at K.G.S. herself, and not at Alabama as
a forum. Under Walden, this “contact” is insufficient to
demonstrate that Facebook created a “substantial connection” with Alabama when it failed to act to remove
the Facebook page. See Walden, 571 U.S. at 289 (holding that a defendant’s intentional actions outside the
forum did not create sufficient contacts with the forum
“simply because [the defendant] allegedly directed his
conduct at plaintiffs whom he knew had . . . connections [to the forum]”). Focusing, as we must, on the
suit-related contacts Facebook itself created with Alabama – not Facebook’s contacts with K.G.S. or K.G.S.’s
contacts with Alabama – we must conclude that there
is an absence of suit-related conduct that creates a
substantial connection with Alabama. Thus, we must
conclude that the Fourteenth Amendment does not allow for the exercise of specific jurisdiction over Facebook under the particular facts of this case. See Ex
parte Citizens Prop. Ins. Corp., 15 So. 3d 511, 515 (Ala.
2009) (“The issue of personal jurisdiction ‘ “stands or
falls on the unique facts of [each] case.” ’ ” (quoting Ex

36a
parte I.M.C., Inc., 485 So. 2d 724, 725 (Ala. 1986) (quoting and adopting trial court’s order))).13
Accordingly, for the reasons set forth above, the
Fourteenth Amendment does not allow the trial court
to exercise general or specific personal jurisdiction
over Facebook. “ ‘A judgment rendered against a defendant in the absence of personal jurisdiction over
that defendant is void.’ ” Bank of America Corp. v. Edwards, 881 So. 2d 403, 405 (Ala. 2003) (quoting Horizons 2000, Inc. v. Smith, 620 So. 2d 606, 607 (Ala.
1993)). Because the trial court did not have jurisdiction
to enter a preliminary injunction against Facebook,
that injunction is void. Because a void judgment will
not support an appeal, see Tidwell v. State Ethics
Comm’n, 599 So. 2d 12 (Ala. 1992), Facebook’s appeal
is due to be dismissed. Because the trial court lacked
personal jurisdiction over Facebook at the time the
preliminary injunction was entered, the trial court is
instructed to dismiss K.G.S.’s claims against Facebook.
B.

Appeal No. 1170294 – Gelin

Gelin also appealed from the preliminary injunction, which enjoined Gelin from “publicly discussing, in
13

Because we have concluded that K.G.S. did not establish
that Facebook had sufficient minimum contacts with Alabama to
satisfy due process, we need not consider “whether the exercise of
personal jurisdiction over the nonresident defendant comports
with ‘ “traditional notions of fair play and substantial justice.” ’ ”
Elliott, 830 So. 2d at 731 (quoting Brooks v. Inlow, 453 So. 2d 349,
351 (Ala. 1984), quoting in turn International Shoe, 326 U.S. at
316).

37a
any way whatsoever, matters surrounding the adoption of Baby Doe and this lawsuit in any public forum.”
On appeal, Gelin first argues that the “most fundamental error below is that the trial court lacked personal
jurisdiction” over her. Gelin’s brief, at 17. Before the
trial court, Gelin asserted that she lacked sufficient
minimum contacts with Alabama to support the trial
court’s exercise of personal jurisdiction over her. In
response, K.G.S. argued (1) that Gelin’s assertion of
a personal-jurisdiction defense came too late because,
although the defense was available to her at the time,
it was not asserted in Gelin’s first motion asserting a
Rule 12(b) defense, see generally Rule 12(b), (g), and
(h)(1), Ala. R. Civ. P., and (2) that, under the Calder “effects test,” Gelin’s intentional conduct was aimed at Alabama in a manner that satisfied the requirement of
minimum contacts with Alabama to support the exercise of personal jurisdiction.
In its order denying Gelin’s motion to dismiss, the
trial court did not indicate the basis for its conclusion
that “it has jurisdiction over [Gelin].” In other words,
the order does not indicate whether the trial court believed it had jurisdiction over Gelin because she had
not timely raised the personal-jurisdiction defense or
because Gelin had sufficient minimum contacts with
Alabama.14 Under these circumstances, where the trial
14

Notably, in its order denying Facebook’s motion to dismiss,
the trial court specifically concluded that Facebook had “minimum contacts . . . with the State of Alabama.” The order denying
Gelin’s motion to dismiss does not make any finding regarding
Gelin’s having minimum contacts with Alabama.

38a
court did not specify a basis for its ruling, Gelin
was required to present an argument in her principal
brief on appeal, in compliance with Rule 28(a)(10), Ala.
R. App. P., stating why neither ground was a valid
basis for asserting personal jurisdiction over her. See
Fogarty v. Southworth, 953 So. 2d 1225, 1232 (Ala.
2006). However, in her principal brief on appeal, Gelin
argues only that she does not have sufficient minimum
contacts with Alabama; she does not address the other
potential basis for the trial court’s order – that her assertion of the personal-jurisdiction defense was untimely. Gelin’s failure to do so results in a waiver of this
issue on appeal.
“In order to secure a reversal, ‘the appellant has an affirmative duty of showing error
upon the record.’ Tucker v. Nichols, 431 So. 2d
1263, 1264 (Ala. 1983). It is a familiar principle of law:
“ ‘When an appellant confronts an issue below that the appellee contends
warrants a judgment in its favor and
the trial court’s order does not specify
a basis for its ruling, the omission of
any argument on appeal as to that issue in the appellant’s principal brief
constitutes a waiver with respect to
the issue.’
“Fogarty v. Southworth, 953 So. 2d 1225, 1232
(Ala. 2006) (footnote omitted) (emphasis added).
This waiver, namely, the failure of the appellant to discuss in the opening brief an issue on
which the trial court might have relied as a

39a
basis for its judgment, results in an affirmance of that judgment. Id. That is so, because ‘this court will not presume such error
on the part of the trial court.’ Roberson v. C.P.
Allen Constr. Co., 50 So. 3d 471, 478 (Ala. Civ.
App. 2010) (emphasis added).”
Soutullo v. Mobile Cty., 58 So. 3d 733, 738-39 (Ala.
2010).
Accordingly, we must conclude that the issue
whether the trial court had personal jurisdiction over
Gelin is waived on appeal. See generally Afassco, Inc.
v. Sanders, 142 So. 3d 1119, 1124 (Ala. 2013) (noting
that the defense of lack of personal jurisdiction is subject to waiver).15 Therefore, we turn now to address
Gelin’s direct challenges to the preliminary injunction
entered against her.
Gelin first argues that the preliminary injunction
suffered from a procedural deficiency that requires
dissolution of the injunction against her. Specifically,
she contends that the trial court could not enter a
15

Because we have concluded that this issue is waived on
appeal because Gelin did not raise it in her opening brief on appeal, we see no basis for allowing K.G.S. to file a “sur-reply brief ”
to address Gelin’s argument concerning the timeliness of her Rule
12(b)(2) motion, which was asserted for the first time in Gelin’s
reply brief. The remainder of K.G.S.’s “sur-reply brief ” purports
to address the “procedural flaws” Gelin raised on appeal. However, Gelin raised these “procedural flaws” in her opening brief,
and K.G.S. did not respond to those arguments in her appellee’s
brief filed pursuant to Rule 28(b), Ala. R. App. P. K.G.S.’s failure
in this regard is not a basis for granting her motion to file a “surreply brief.”

40a
preliminary injunction against her because K.G.S.
never moved for a preliminary injunction against her.
Indeed, K.G.S.’s motion for a preliminary injunction
sought an order requiring Facebook and D’Arcy “to deactivate the Facebook page” and an order enjoining
“D’Arcy and Kim McLeod from discussing matters surrounding . . . this lawsuit until the instant proceeding
is fully litigated and resolved.” In the motion, K.G.S.
identified conduct by D’Arcy and McLeod that she alleged supported her motion and alleged that D’Arcy
and McLeod “are the most persistent and harmful
posters on the [Facebook] page.” Gelin, however, is not
mentioned anywhere in the motion for a preliminary
injunction.
Rule 65(a)(1), Ala. R. Civ. P., provides: “Notice. No
preliminary injunction shall be issued without notice
to the adverse party.” We agree that the trial court had
no authority to issue a preliminary injunction against
Gelin when there is no indication that Gelin was given
notice that K.G.S. sought to enjoin her conduct or actions in any way. Cf. State v. Brady, [Ms. 1180002, May
31, 2019] ___ So. 3d ___ (Ala. 2019) (holding that a trial
court acts without authority when it grants relief that
no party before it sought). There is no indication in the
record that Gelin assumed, despite K.G.S.’s failure to
explicitly seek to enjoin Gelin, that K.G.S.’s motion for
a preliminary injunction as to other defendants sought
to enjoin her in some way. Even assuming that Gelin
received notice that the trial court would consider
K.G.S.’s motion for a preliminary injunction at the November 30 hearing – at which the trial court was also

41a
considering all pending motions to dismiss – Gelin’s
notice of a hearing on K.G.S.’s motion for a preliminary
injunction, when Gelin had not been given notice that
K.G.S. sought to enjoin Gelin’s actions in some way,
does not satisfy the requirements of Rule 65(a)(1). Further, even if it became obvious at the November 30
hearing that K.G.S. sought to enjoin Gelin’s conduct in
some way, this Court has indicated that a defendant
must be given sufficient notice so that the defendant
has an opportunity to prepare an opposition to the injunction. See Ciena Corp. v. Jarrard, 203 F.3d 312, 319
(4th Cir. 2000) (holding that “[b]ecause a preliminary
injunction is unlimited in duration, its entry always requires notice to the opposing party sufficient to give
that party an opportunity to prepare an opposition to
entry of an injunction” (quoted with approval in Southern Homes, AL, Inc. v. Bermuda Lakes, LLC, 57 So. 3d
100, 105 (Ala. 2010))). Thus, even if Gelin learned at
the November 30 hearing that K.G.S. sought to enjoin
her conduct in some way, that “notice” was not sufficient to satisfy Rule 65(a)(1).
Accordingly, we reverse the order entering the preliminary injunction against Gelin and remand this
case with instructions to the trial court to dissolve the
preliminary injunction against Gelin. However, the
trial court’s determination that it had personal jurisdiction over Gelin must be upheld because Gelin
waived her challenge to the trial court’s determination
in that regard for purposes of this appeal.

42a
C.

Appeal No. 1170336 – McLeod

McLeod appeals from the preliminary injunction,
which enjoined her from “publicly discussing, in any
way whatsoever, matters surrounding the adoption of
Baby Doe and this lawsuit in any public forum.”
McLeod argues, among other things, that K.G.S. failed
to demonstrate that she was entitled to an injunction.
“ ‘The decision to grant or to deny a preliminary injunction is within the trial court’s
sound discretion. In reviewing an order granting a preliminary injunction, the Court determines whether the trial court exceeded that
discretion.’ SouthTrust Bank of Alabama,
N.A. v. Webb-Stiles Co., 931 So. 2d 706, 709
(Ala. 2005). As to questions of fact, the ore
tenus rule is applicable in preliminary-injunction proceedings. See Water Works & Sewer
Bd. of Birmingham v. Inland Lake Invs., LLC,
31 So. 3d 686, 689-90 (Ala. 2009). As this
Court recently noted in Holiday Isle, LLC v.
Adkins, 12 So. 3d 1173, 1176 (Ala. 2008), however,
“ ‘[t]o the extent that the trial
court’s issuance of a preliminary injunction is grounded only in questions of law based on undisputed
facts, our longstanding rule that we
review an injunction solely to determine whether the trial court exceeded
its discretion should not apply. We
find the rule applied by the United
States Supreme Court in similar situations to be persuasive: “We review

43a
the District Court’s legal rulings de
novo and its ultimate decision to issue the preliminary injunction for
abuse of discretion.” Gonzales v. O
Centro Espirita Beneficente Uniao
do Vegetal, 546 U.S. 418, 428, 126 S.Ct.
1211, 163 L.Ed. 2d 1017 (2006). . . .’
“(Emphasis omitted.)
“The plaintiff bears the burden of producing evidence sufficient to support the issuance
of a preliminary injunction. Ormco Corp. v.
Johns, 869 So. 2d 1109, 1113 (Ala. 2003). The
requirements for a preliminary injunction are
well known:
“ ‘“Before entering a preliminary injunction, the trial court must be satisfied: (1) that without the injunction
the plaintiff will suffer immediate
and irreparable injury; (2) that the
plaintiff has no adequate remedy at
law; (3) that the plaintiff is likely to
succeed on the merits of the case;
and (4) that the hardship imposed
upon the defendant by the injunction
would not unreasonably outweigh
the benefit to the plaintiff.” ’
“Blount Recycling, LLC v. City of Cullman,
884 So. 2d 850, 853 (Ala. 2003) (quoting Blaylock v. Cary, 709 So. 2d 1128, 1130 (Ala.
1997)).”
Barber v. Cornerstone Cmty. Outreach, Inc., 42 So. 3d
65, 77-78 (Ala. 2009).

44a
McLeod first argues that K.G.S. failed to demonstrate a likelihood of success on the merits of her
claims. Initially, we note that K.G.S. sought a preliminary injunction only on the basis of the likelihood of
success of her underlying invasion-of-privacy claim; accordingly, we limit our discussion of the likelihood-ofsuccess element to that claim.
This Court has recognized four “distinct theories
of recovery for the tort of invasion of privacy.” Regions
Bank v. Plott, 897 So. 2d 239, 243 (Ala. 2004).
“ ‘ “It is generally accepted that invasion of privacy consists of four limited
and distinct wrongs: (1) intruding into
the plaintiff ’s physical solitude or seclusion; (2) giving publicity to private
information about the plaintiff that
violates ordinary decency; (3) putting
the plaintiff in a false, but not necessarily defamatory, position in the
public eye; or (4) appropriating some
element of the plaintiff ’s personality
for a commercial use.” ’
“Butler v. Town of Argo, 871 So. 2d 1, 12 (Ala.
2003) (quoting Johnston v. Fuller, 706 So. 2d
700, 701 (Ala. 1997)). ‘Although all of these
claims concern, in the abstract, the concept of
being left alone, each tort has distinct elements and establishes a separate interest
that may be invaded.’ Doe v. High-Tech Inst.,
Inc., 972 P.2d 1060, 1065 (Colo. Ct. App. 1998);
see also Nathan E. Ray, Note, Let There Be
False Light: Resisting the Growing Trend

45a
Against an Important Tort, 84 Minn. L. Rev.
713, 718 (2000).”
Regions Bank, 897 So. 2d at 243.
In K.G.S.’s amended complaint, she specifically alleged invasion-of-privacy claims based on “misappropriation” and “false light,” which are the third and
fourth forms of invasion of privacy set forth above.
However, other than a general allegation that “each of
the four forms of invasion of privacy are present,”
K.G.S., in the motion for a preliminary injunction,
sought to prove only a likelihood of success on a claim
of invasion of privacy based on “giving publicity to private information about the plaintiff that violates ordinary decency” – the second form of invasion of privacy
set forth above. Although this specific form of invasion
of privacy is not included as a separate claim in the
first amended complaint, there was no objection below
to the trial court’s considering this form of invasion of
privacy as the basis for the preliminary injunction;
therefore, we will consider whether K.G.S. demonstrated a likelihood of success on a claim of invasion of
privacy based on McLeod’s giving publicity to private
information about K.G.S. and Baby Doe.16

16

To the extent the trial court entered the preliminary injunction based on the likelihood of success on the merits of the
two invasion-of-privacy claims specifically raised in K.G.S.’s first
amended complaint, we agree with McLeod that such a conclusion
would be error, because K.G.S. failed to present any evidence to
support a conclusion that she had a likelihood of success on the
merits of either of those claims. See Blount Recycling, LLC v. City
of Cullman, 884 So. 2d 850, 855 (2003) (“[W]hile Rule 65, Ala. R.

46a
“In regard to a claimed invasion of privacy based on a defendant’s giving publicity to
private information, this Court has adopted
the language and reasoning of Restatement
(Second) of Torts § 652D (1977). Johnston[ v.
Fuller], 706 So. 2d [700,] 703 [(Ala. 1997)].
Section 652D states:
“ ‘One who gives publicity to a matter
concerning the private life of another
is subject to liability to the other for
invasion of his privacy, if the matter
publicized is of a kind that
“ ‘(a) would be highly offensive to
a reasonable person, and
“ ‘(b) is not of legitimate concern
to the public.’ ”
Ex parte Birmingham News, Inc., 778 So. 2d 814, 818
(Ala. 2000).

Civ. P., ‘does not explicitly require that oral testimony be presented at a preliminary injunction hearing, some type of evidence
which substantiates the pleadings is implicitly required by subsection (a)(2) of the rule.’ ” (quoting Bamberg v. Bamberg, 441
So. 2d 970, 971 (Ala. Civ. App. 1983))); Butler v. Town of Argo,
871 So. 2d 1, 12 (Ala. 2003) (“A false-light claim does not require
that the information made public be private; instead, the information made public must be false.” (some emphasis added)); and
Bell v. Birmingham Broad. Co., 266 Ala. 266, 269, 96 So. 2d 263,
265 (1957) (noting that an individual’s “privacy . . . may not be
lawfully invaded by the use of his name and picture for commercial purposes without his consent, not incidental to an occurrence
of legitimate news value” (emphasis added)).

47a
In her motion for a preliminary injunction, K.G.S.
argued:
“In addition to receiving considerable
publicity, the [Facebook] page, Ms. D’Arcy, and
Ms. McLeod unlawfully provide, and continue
to unlawfully provide, confidential and personal information about K.G.S. and Baby
Doe’s adoption that [is] not of public concern
and would be extremely offensive to any reasonable person. Significantly, in plain violation of the . . . Adoption Code and Alabama
confidentiality laws, K.G.S.’s name and Baby
Doe’s likeness have been utilized and referenced incessantly. The frequent use of K.G.S.’s
name and Baby Doe’s likeness on the [Facebook] page, alone, are sufficiently private and
offensive to satisfy this particular invasion of
privacy tort because of states’ ‘overriding public policy of protecting from harmful publicity
parties to and the subject of adoption proceedings.’ In re Adoption of H.Y.T., 458 So. 2d 1127,
1128 (Fla. 1984).
“ . . . Confidentiality is the very essence of
the adoption process, and by openly disclosing
K.G.S.’s name and Baby Does’s [sic] likeness,
K.G.S. and Baby Doe have been subject to the
very harms adoption laws were intended to
prevent.”
(Footnote omitted.)
We agree that the Adoption Code, considered as a
whole, is a clear statement by the legislature that adoption proceedings, whether the adoption is contested or

48a
not, are intended to be confidential. See, e.g., § 26-10A24(f ), Ala. Code 1975 (“All references to the names of
the parties in the [contested adoption] proceedings
shall be by initial only.”); § 26-10A-26, Ala. Code 1975
(“Only the initials of the natural parents and the
[adoption] petitioner shall be indicated in all pleadings
and briefs” filed in an appeal from a final judgment of
adoption); and § 26-10A-31, Ala. Code 1975 (providing
for the confidentiality of the records and proceedings
in an adoption case, except upon order of the court).
Citing the requirement in § 26-10A-24(f ) that all references to the names of parties to a contested adoption
must be by initials only, K.G.S. argued that, by disclosing her name on the Facebook page, McLeod violated
that part of the Adoption Code and invaded her privacy.17
It is axiomatic, however, that a claim of invasion of
privacy based on a defendant’s giving publicity to private information about the plaintiff can succeed only if
the plaintiff can prove that the publicized information
was actually private at the time it was publicized. See
Abernathy v. Thornton, 263 Ala. 496, 498, 83 So. 2d
235, 237 (1955) (“ ‘There can be no privacy in that
17

McLeod argues that § 26-10A-24(f ) and other parts of the
Adoption Code cannot be applied to prevent third parties, like her,
from publicizing information about the contested adoption – after
that information is obtained from sources outside confidential
court documents – without violating her right to freedom of
speech and expression under the First Amendment to the United
States Constitution. For the reasons set forth herein, we need not
consider this specific contention to resolve the issues presented on
appeal.

49a
which is already public.’ ” (quoting Charles Hepburn,
Cases on the Law of Torts, p. 504 (1954))); Faloona v.
Hustler Magazine, Inc., 799 F.2d 1000, 1006 (5th Cir.
1986) (stating “the obvious” that “the tortious disclosure of private facts ‘applies only to private facts’ ”
(quoting Faloona v. Huster [sic] Magazine, Inc., 607
F. Supp. 1341, 1359 (N.D. Texas 1985))); Grimsley v.
Guccione, 703 F. Supp. 903, 910 (M.D. Ala. 1988) (“[A]
defendant who merely gives further publicity about a
plaintiff concerning information already made public
cannot be held liable” for an invasion of privacy based
on giving publicity to private information.).
In her motion for a preliminary injunction, K.G.S.
identified the invasion of privacy at issue as the posting of her full name and photographs of Baby Doe on
the Facebook page. Although we agree that K.G.S.’s full
name – i.e., her identity as the prospective adoptive
parent in a contested adoption case involving Baby
Doe – was intended to be confidential, we must agree
with McLeod that, at the time McLeod publicized
K.G.S.’s full name and photographs of Baby Doe on the
Facebook page, that information was not private but,
instead, had already been made public by what K.G.S.
described as “a prominent media outlet” – the Huffington Post. It is undisputed that the Facebook page was
not created until after the Huffington Post published
its two-part article using K.G.S.’s full name and identifying her as the petitioner in the contested adoption
proceeding involving Baby Doe. The article also published photographs of Baby Doe and very specific details about the facts underlying the adoption contest.

50a
Thus, because it was undisputed that K.G.S.’s name
and Baby Doe’s likeness were made public before
McLeod ever publicized that information on the Facebook page, K.G.S. has not demonstrated a likelihood of
success on the merits of her claim that McLeod invaded her privacy by publicizing private information
by “using K.G.S.’s name and Baby Doe’s likeness on the
[Facebook] page.”18
Accordingly, we conclude that K.G.S. failed to
demonstrate a likelihood of success on the merits of
her invasion-of-privacy claim to support the entry of a
preliminary injunction against McLeod. Based on our
conclusion in this regard, we pretermit discussion of
McLeod’s additional challenges to the preliminary
18

Of course, there could be no invasion of privacy of this kind
in relation to any information McLeod allegedly publicized about
the contested adoption that was already public information. To
the extent that the record contains some indication that K.G.S.
believed that McLeod had publicized information about the contested adoption that she might believe was not “already public” at
the time it was publicized, we will not address that suggestion in
the record as an alternate basis for affirming the trial court’s injunction against McLeod because, under the particular circumstances of this case, we conclude that it would violate McLeod’s
due-process rights. See Liberty Nat’l Life Ins. Co. v. University of
Alabama Health Servs. Found., P.C., 881 So. 2d 1013, 1020 (Ala.
2003) (holding that this Court may affirm a trial court’s judgment
on any valid legal ground supported by the record, unless due process requires notice at the trial level that was omitted). A preliminary injunction is a “drastic remedy,” Ormco Corp. v. Johns, 869
So. 2d 1109, 1114 (Ala. 2003), and K.G.S. did not specifically raise
this argument in her motion for a preliminary injunction or include any facts to support this argument in her affidavit in support of the preliminary injunction, and neither party directly
addresses this argument in their briefs on appeal.

51a
injunction. We reverse the order granting the preliminary injunction entered against McLeod and remand
the case with instructions that the trial court dissolve
the preliminary injunction.
IV.

Conclusion

In appeal no. 1170244, the preliminary injunction
entered against Facebook is void for lack of personal
jurisdiction; therefore, Facebook’s appeal of the preliminary injunction is due to be dismissed and the trial
court is instructed to dismiss K.G.S.’s claims against
Facebook. In appeal no. 1170294, the order entering
the preliminary injunction against Gelin is reversed
for lack of notice, and the case is remanded with instructions to the trial court to dissolve the preliminary
injunction issued against Gelin. In appeal no. 1170336,
we reverse the preliminary injunction against McLeod,
and we remand this case with instructions to the trial
court to dissolve the preliminary injunction issued
against McLeod.
1170244 – APPEAL DISMISSED WITH INSTRUCTIONS.
1170294 – REVERSED AND REMANDED WITH
INSTRUCTIONS.
1170336 – REVERSED AND REMANDED WITH
INSTRUCTIONS.
Parker, C.J., and Shaw, Wise, Sellers, and
Mendheim, JJ., concur.

52a
Bolin, J., concurs in the result.
Stewart and Mitchell, JJ., recuse themselves.

53a
IN THE CIRCUIT COURT OF
JEFFERSON COUNTY, ALABAMA
BIRMINGHAM DIVISION
KGS INDIVIDUALLY
AND AS GUARDIAN
AND NEXT FRIEND,
Plaintiff,
V.
FACEBOOK INC,
D’ARCY CLAUDIA,
GELIN RENEE L,
MCLEOD KIM ET AL,
Defendants.

)
)
)
)
)
)
)
)
)
)
)

Case No.:
CV-2017-000255.00

ORDER
(Filed Jul. 23, 2019)
This matter comes before the Court on the Defendant Facebook, Inc.’s Motion to Stay Pending Issuance
of Certificate of Judgment.
The Court is also in receipt of that certain opinion
entered by the Alabama Supreme Court in case numbers 1170244, 1170294, and 1170336. In accordance
with same, it is therefore ORDERED, ADJUDGED,
and DECREED as follows:
1. Any and all claims asserted by the Plaintiff, KGS,
individually and as guardian and next friend as Baby
Doe, a minor child, against the Defendant Facebook,
Inc., are hereby DISMISSED, with prejudice;

54a
2. The preliminary injunction issued against the Defendant Renee L. Gelin, is hereby DISSOLVED;
3. The preliminary injunction issued against the Defendant Kim McLeod is hereby DISSOLVED;
4. The Defendant Facebook, Inc.’s Motion to Stay
Pending Issuance of Certificate of Judgment is hereby
MOOT.
5. The hearing set in this matter for Monday, July 29,
2019 at 10:30 A.M., concerning several motions filed by
the parties, is hereby CANCELLED.
Costs are hereby taxed as paid.
DONE this 23rd day of July, 2019.
/s/ DONALD E. BLANKENSHIP
CIRCUIT JUDGE

55a
IN THE CIRCUIT COURT OF
JEFFERSON COUNTY, ALABAMA
BIRMINGHAM DIVISION
KGS INDIVIDUALLY
AND AS GUARDIAN
AND NEXT FRIEND,
Plaintiff,
V.
FACEBOOK INC,
D’ARCY CLAUDIA,
GELIN RENEE L,
MCLEOD KIM ET AL,
Defendants.

)
)
)
)
)
)
)
)
)
)
)

Case No.:
CV-2017-000255.00

ORDER
(Filed Dec. 19, 2017)
Before the Court is Plaintiffs’ Motion for a Preliminary Injunction, pursuant to Rule 65 of the Alabama
Rules of Civil Procedure. It is well settled in Alabama
that a plaintiff seeking a preliminary injunction has
the burden of proving all of the following:
(1) That without the injunction the party would
suffer irreparable injury;
(2) That the party has no adequate remedy at
law;
(3) That the party has at least a reasonable
chance of success on the ultimate merits of the
case; and

56a
(4) That the hardship imposed on the party opposing the preliminary injunction, would not unreasonably outweigh the benefit accruing to the
party seeking the injunction. See, e.g., Holiday Isle,
LLC v. Adkins, 12 So. 3d 1173, 1176 (Ala. 2008).
Having reviewed the pleadings, K.G.S.’s affidavit
in support of the preliminary injunction, the Motion,
the Response in Opposition thereof, and the oral arguments of counsel, the Court finds that a preliminary
injunction is necessary to curtail the disclosures and
narrative concerning the private, contested adoption of
Baby Doe by K.G.S. This information seems to be fostered, disseminated, and hosted by the Facebook page
entitled “Bring Baby [Doe] Home.”
Accordingly, the Defendants Facebook, Inc. and
Claudia C. D’Arcy are hereby ORDERED and DIRECTED
to deactivate the Facebook page entitled “Bring Baby
[Doe] Home”.
The Court further ORDERS and DIRECTS Defendants Claudia C. D’Arcy, Kim McLeod, and Renee
Gelin from publicly discussing, in any way whatsoever,
matters surrounding the adoption of Baby Doe and
this lawsuit in any public forum.
In accordance with Rule 65(c) of the Alabama
Rules of Civil Procedure, the Court ORDERS and DIRECTS Plaintiff K.G.S. to post $1000.00 with the
Court as a security bond for the payment of costs, damages, and reasonable attorneys’ fees as may be incurred or suffered by any party who is ultimately
found to have been wrongfully enjoined or restrained

57a
herein. The Clerk of Court is hereby ORDERED and
DIRECTED to receive that stated amount.
DONE this 19th day of December, 2017.
/s/ DONALD E. BLANKENSHIP
CIRCUIT JUDGE

58a
IN THE CIRCUIT COURT OF
JEFFERSON COUNTY, ALABAMA
BIRMINGHAM DIVISION
KGS INDIVIDUALLY
AND AS GUARDIAN
AND NEXT FRIEND,
Plaintiff,
V.
FACEBOOK INC,
D’ARCY CLAUDIA,
GELIN RENEE L,
MCLEOD KIM ET AL,
Defendants.

)
)
)
)
)
)
)
)
)
)
)

Case No.:
CV-2017-000255.00

ORDER
(Filed Dec. 18, 2017)
This matter comes before the Court on the Defendant Facebook, Inc.’s Motion to Dismiss Plaintiff ’s First
Amended Complaint. The Defendant files its Motion to
Dismiss based on Ala. R. Civ. P. Rules 12(b)(2), (3) and
(6). After reviewing the submissions on file and after
hearing the arguments of Counsel, the Court makes
the following finding(s):
1. The Plaintiff has stated a claim upon which relief
can be granted;
2. Based on the minimum contacts that the Defendant has with the State of Alabama, venue is proper in
Jefferson County, AL and therefore the Court has jurisdiction over the Defendant;

59a
3. At a later date, upon the filing of a properly crafted
Motion, the Court will determine whether a genuine
issue of material fact exists and thereby whether the
Defendant is entitled to judgment as a matter of law.
It is therefore ORDERED, ADJUDGED, and DECREED that the Defendant Facebook, Inc.’s Motion
to Dismiss the Plaintiff ’s First Amended Complaint is
hereby DENIED.
DONE this 18th day of December, 2017.
/s/ DONALD E. BLANKENSHIP
CIRCUIT JUDGE

60a
IN THE SUPREME COURT OF ALABAMA
[SEAL]
August 23, 2019
1170244 Facebook, Inc. v. K.G.S., individually, and as
guardian and next friend of Baby Doe, a minor child
(Appeal from Jefferson Circuit Court: CV-17-255).
CERTIFICATE OF JUDGMENT
WHEREAS, the ruling on the application for rehearing filed in this case and indicated below was entered in this cause on August 23, 2019:
Application Overruled. No Opinion.
Bryan, J. – Parker, C.J., and Bolin, Shaw,
Wise, Sellers, and Mendheim, JJ., concur.
Stewart and Mitchell, JJ., recuse themselves.
WHEREAS, the appeal in the above referenced
cause has been duly submitted and considered by the
Supreme Court of Alabama and the judgment indicated below was entered in this cause on June 28, 2019:
Appeal Dismissed with Instructions.
Bryan, J. – Parker, C.J., and Shaw, Wise, Sellers,
and Mendheim, JJ., concur. Bolin, J., concurs in the
result. Stewart and Mitchell, JJ., recuse themselves.
NOW, THEREFORE, pursuant to Rule 41, Ala. R.
App. P., IT IS HEREBY ORDERED that this Court’s
judgment in this cause is certified on this date. IT IS
FURTHER ORDERED that, unless otherwise ordered
by this Court or agreed upon by the parties, the costs

61a
of this cause are hereby taxed as provided by Rule 35,
Ala. R. App. P.
I, Julia J. Weller, as Clerk of the Supreme
Court of Alabama, do hereby certify that the
foregoing is a full, true, and correct copy of the
instrument(s) herewith set out as same appear(s)
of record in said Court.
Witness my hand this 23rd day of August,
2019.
/s/ Julia Jordan Weller
Clerk, Supreme Court of Alabama

62a
Alabama Rules of Civil Procedure
II. Commencement of action; service of
process, pleadings, motions, and orders.
Rule 4.2.
Process. Basis for and
methods of out-of-state service.
(a) In-state service. All process may be served
anywhere in this state and, when authorized by law
or by these rules, may be served outside this state.
(b) Basis for out-of-state service. An appropriate
basis exists for service of process outside of this state
upon a person or entity in any action in this state when
the person or entity has such contacts with this state
that the prosecution of the action against the person
or entity in this state is not inconsistent with the
constitution of this state or the Constitution of the
United States; or, the person or entity is sued in the
capacity of guardian of a ward, or executor, administrator, or other personal representative of an estate,
for the acts or omissions of a decedent or ward, and
the person or entity so sued does not otherwise have
sufficient contacts with this state in that capacity,
but the decedent or ward would have been deemed to
have sufficient contacts with this state if the action
could have been maintained against the decedent or
ward.

63a
(dc) District court rule. Rule 4.2 applies in the
district courts.
[Adopted 10-14-76, eff. 1-16-77; Amended eff. 10-1-95;
Amended eff. 8-1-2004.]

Committee Comments on 1977
Complete Revision
Committee Comments on Complete
Revision to Rules 4, 4.1, 4.2, 4.3,
and 4.4, effective August 1, 2004
Committee Comments to Amendment to Rule 4.2
Effective August 1, 2004
This rule has been completely rewritten and now
combines the provisions for territorial limits of service.
New subdivision 4.2(a) was formerly Rule 4(b). Subdivision 4.2(b) is taken from former 4.2(a)(1)(B). New
4.2(b) is, in effect, Alabama’s “long-arm statute.” The
structure of former 4.2 included a “laundry list” of
types of conduct that would subject an out-of-state defendant to personal jurisdiction in Alabama, as well as
containing the “catchall” clause now contained in new
4.2(b). Because the “catchall” clause has consistently
been interpreted to go to the full extent of federal due
process, see, for example, Martin v. Robbins, 628 So.2d
614, 617 (Ala.1993), it is no longer necessary to retain
the “laundry list” in the text of the Rule. The so-called
“laundry list,” former Rule 4.2(a)(2)(A)-(H), read as follows:

64a
“(2) SUFFICIENT CONTACTS. A person has sufficient contacts with the state when that person,
acting directly or by agent, is or may be legally responsible as a consequence of that person’s:
“(A)

transacting any business in this state;

“(B) contracting to supply services or goods
in this state;
“(C) causing tortious injury or damage by an
act or omission in this state including but not limited to actions arising out of the ownership, operation or use of a motor vehicle, aircraft, boat or
watercraft in this state;
“(D) causing tortious injury or damage in
this state by an act or omission outside this state
if the person regularly does or solicits business, or
engages in any other persistent course of conduct
or derives substantial revenue from goods used or
consumed or services rendered in this state;
“(E) causing injury or damage in this state
to any person by breach of warranty expressly or
impliedly made in the sale of goods outside this
state when the person might reasonably have expected such other person to use, consume, or be affected by the goods in this state, provided that the
person also regularly does or solicits business, or
engages in any other persistent course of conduct,
or derives substantial revenue from goods used or
consumed or services rendered in this state;
“(F) having an interest in, using, or possessing real property in this state;

65a
“(G) contracting to insure any person, property, or risk located within this state at the time of
contracting;
“(H) living in the marital relationship within
this state notwithstanding subsequent departure
from this state, as to all obligations arising from
alimony, custody, child support, or property settlement, if the other party to the marital relationship
continues to reside in this state. . . .”
Note from the reporter of decisions: The order
amending Rules 4, 4.1, 4.2, 4.3, 4.4, 6(a), 7(b)(2), 17(a),
22(c), and 26(b), Alabama Rules of Civil Procedure, effective August 1, 2004, is published in that volume of
Alabama Reporter that contains Alabama cases from
867 So.2d.

66a
IN THE CIRCUIT COURT OF
JEFFERSON COUNTY, ALABAMA
K.G.S., Individually,
and as Guardian and
Next Friend of BABY
DOE, a minor child,

)
)
)
)
)
Plaintiffs,
)
v.
)
FACEBOOK, INC.,
)
CLAUDIA C. D’ARCY, )
KIM MCLEOD, RENEE )
L. GELIN, JENNIFER )
L. WACHOWSKI, and
)
Fictitious Parties “A-Z,” )
)
Defendants.

Civil Action No.:
2017-000255

FILED UNDER SEAL
AND SHOULD NOT
BE DISCLOSED
ABSENT COURT
ORDER.

FIRST AMENDED COMPLAINT
(Filed Oct. 20, 2017)
COME NOW, Plaintiffs K.G.S.,1 individually, and
as Guardian and Next Friend of Baby Doe, a minor
child, and by and through their undersigned counsel of
record, hereby file this First Amended Complaint
against Defendants Facebook, Inc., Claudia C. D’Arcy,
Kim McLeod, Renee L. Gelin, Jennifer L. Wachowski,
1

In accordance with Alabama’s Adoption Code, Ala. Code
§ 26-10A-1, et seq., and consistent with this State’s and many others’ overriding public policy interests in protecting all of the parties involved in an adoption proceeding from harmful publicity,
this Complaint will refer to the parties to the adoption by their
initials, and the minor-child anonymously.

67a
and Fictitious Parties A-Z. In support of this Complaint, Plaintiffs state as follows:
JURISDICTION AND VENUE
1. This Court has jurisdiction over this matter
pursuant to Ala. Code § 12-11-30(1), as the amount in
controversy exceeds $10,000.
2. Venue is proper in this Court pursuant to Ala.
Code § 6-3-2 and § 6-3-7, as a substantial part of the
events giving rise to these claims occurred in Jefferson
County, Alabama.
PARTIES
3. Plaintiff K.G.S. is an Alabama citizen, resident
of Jefferson County, Alabama, and over 19 years of age.
4. Plaintiff Baby Doe is an Alabama citizen, resident of Jefferson County, Alabama, and minor child
represented by and through his Guardian and Next
Friend, K.G.S.
5. Defendant Facebook, Inc. is a Delaware corporation with its principal place of business in Menlo
Park, California.
6. Defendant Claudia D’Arcy is a New York citizen, resident of Ulster County, New York, and over 19
years of age.
7. Defendant Kim McLeod is an Alabama citizen,
resident of Mobile County, Alabama, and over 19 years

68a
of age. Ms. McLeod has participated in and/or directed
YouTube videos that were filmed in Jefferson County,
Alabama.
8. Defendant Renee L. Gelin, also known as
“Lynn Johansenn,” is a Florida citizen, resident of
Pasco County, Florida, and over 19 years of age. Ms.
Gelin, through her pseudonym Lynn Johansenn, has
authored a number of posts and articles about K.G.S.
and the contested adoption of Baby Doe on the internet.
9. Defendant Jennifer L. Wachowski is a Wisconsin citizen, resident of Waupaca County, Wisconsin,
and over 19 years of age. Ms. Wachowski, through her
blog “Musings of a Birthmom” and other conduits, has
authored a number of posts and articles about K.G.S.
and the contested adoption of Baby Doe on the internet.
10. Fictitious Parties A-Z, whether singular or
plural, are those persons, enterprises, and/or entities
(and their parents, subsidiaries, predecessors, successors, partners, members, shareholders, employees,
agents and other persons acting for or on their behalf ):
(1) who themselves or through their agents defamed
and/or invaded Plaintiffs’ privacy; (2) who themselves
or through their agents engaged, participated, benefitted from, and/or otherwise were directly or indirectly
involved in disclosing confidential information alleged
herein; and (3) who themselves or through their agents
conspired with and/or aided and abetted Defendants or
their agents to commit the underlying torts, all of

69a
whose true names and legal identities are unknown to
Plaintiffs at this time, but who will be added by amendment, individually and jointly, when ascertained, and
are liable to Plaintiffs, as set forth in more detail below.
Fictitious Defendants A-Z must be joined as parties in
this action because, without them, complete relief cannot be afforded among those already parties; or Fictitious Defendants A-Z may be joined in this action
because the relief sought by Plaintiffs against the Defendants is joint, several, or alternative with respect to
or arising out of the same transaction, occurrence or
series of transactions or occurrences and common
questions of law or fact will arise in this action.
FACTS
I.

BACKGROUND

11. In or around June of 2015, K.G.S. adopted
Baby Doe.
12. Soon thereafter, K.R., Baby Doe’s biological
mother, contested said adoption.
II.

DISCLOSURE OF THE CONTESTED ADOPTION PROCEEDINGS

13. Upon information and belief, Defendants
Kim McLeod, Renee L. Gelin, Claudia D’Arcy, Jennifer
L. Wachowski, and/or Fictitious Parties A-Z came to
the realization that, pursuant to Alabama’s Adoption
Code, Ala. Code § 26-10A-1, et seq., which is a version
of the Uniform Adoption Code most states have

70a
codified, K.G.S. lawfully adopted Baby Doe, and thus,
K.R. and her supporters would likely not succeed in a
court of law.
14. Correspondingly, Defendants Kim McLeod,
Renee L. Gelin, Claudia D’Arcy, Jennifer L. Wachowski,
and/or Fictitious Parties A-Z insidiously and wrongfully sought and/or conspired to create a sensationalized, salacious, and scandal-driven trial in the court of
public opinion to pressure K.G.S. into relinquishing
her custody of Baby Doe.
15. To that end, the Huffington Post, a prominent
media outlet, and one of its contributors, Mirah Riben,
who are both always ostensibly looking for a new story
to captivate their worldwide readership and simultaneously derive substantial profits and notoriety, came
into contact with K.R. and her supporters.
16. Ms. Riben, a well-known critic of the United
States’ adoption system, quickly ran with K.R.’s tale of
events in a manner that combined her own biased
agenda, the Huffington Post’s finically [sic]-oriented
goals, and Ms. McLeod, Ms. D’Arcy, Ms. Gelin, Ms.
Wachowski, and/or Fictitious Parties A-Z’s nefarious
publicity-stunt strategy.
17. Indeed, on or around July 7, 2015, the Huffington Post published two articles written by Ms. Riben entitled “Wrongful Adoption: Return Baby [Doe],
Part I and Part II.” See Mirah Riben, Wrongful Adoption, Return Baby [Doe], Part I and Part II, Huffington
Post, July 7, 2015, attached hereto as Exhibit “A.”

71a
18. Eager to use this story to bolster her reputation, gain notoriety, criticize the adoption system, and
humiliate K.G.S. into rectifying a perceived wrong, Ms.
Riben wrote – and the Huffington Post edited – the articles without conducting elementary journalistic due
diligence.
19. A day after Ms. Riben’s articles were published, in an effort to further publicize K.R.’s case and
Ms. Riben’s articles, Ms. D’Arcy, a popular blogger associated with Ms. Riben, created a page on Defendant
Facebook’s website (hereinafter, the “Facebook Page” or
the “Page”) entitled “Bring Baby [Doe] Home.”
20. The Facebook Page attached Ms. Riben’s articles, and, in plain violation of Alabama’s Adoption
Code and Alabama confidentiality laws, likewise included K.G.S.’s full name and a number of unauthorized photographs of Baby Doe in prominent
places throughout the Page. From the outset, Ms.
McLeod, Ms. Gelin, Ms. Wachowski, and/or Fictitious
Parties A-Z were instrumental in publicizing the Page,
its contents, and its message.
21. Moreover, Ms. Gelin and Ms. Wachowski,
through their respective blogs (Saving Our Sisters and
Musings of a Birthmom), various Facebook posts, and
collaborations with media personality Amber Geislinger that rendered lengthy YouTube videos, further
publicized the private, confidential adoption of Baby
Doe.
22. Over a short period of time, due to Facebook
and the Page’s widespread popularity, and by and

72a
through the willful and intentional actions of Ms.
McLeod, Ms. Gelin, Ms. D’Arcy, Ms. Wachowski, and/or
Fictitious Parties A-Z, K.G.S. was inundated with appallingly malicious and persistent cyber-bullying that
continues to this day.
23. Facebook was quickly notified of the unlawful
discourse the Page facilitated by K.G.S.’s counsel. In a
letter dated July 28, 2015, K.G.S.’s attorney told Facebook that Alabama’s Adoption Code prohibited the disclosure of any matters concerning an adoption, including
parties’ actual names, and therefore, the Page needed to
be removed.
24. In response, Facebook removed the Page’s
cover photo, but refused to delete the page or otherwise
prevent it from disseminating its harmful and false
message.
25. To date, the Page has over 7,000 “likes” and
is persistently updated with various posts, news articles, and YouTube videos at K.G.S.’s expense. In fact,
several of the YouTube videos posted on the Page include Ms. McLeod, Ms. Gelin, and Ms. Wachowski, all
of whom attended and/or participated in filming that
took place in Jefferson County.
26. Ultimately, the Page, Ms. McLeod, Ms.
D’Arcy, Ms. Gelin, and Ms. Wachowski have helped
make K.G.S. the poster-child for “predatory” adoptions
in the United States by, among other things, playing
into existing societal prejudices against economic
classism and America’s adoption system, and further

73a
perpetuating and expounding upon Ms. Riben’s false,
one-sided, and wholly misleading narrative.
27. As a result, the Page, Ms. McLeod, Ms.
D’Arcy, Ms. Gelin, and Ms. Wachowski, in violation of
the Uniform Adoption Code, Alabama confidentiality
laws, Plaintiffs’ right to privacy, and various duties
owed to Plaintiffs, have caused Plaintiffs to suffer irreparable harm.
III. HARM RESULTING FROM DEFENDANTS’
ACTS AND OMISSIONS
28. As noted above, not long after the Facebook
Page was created, K.G.S. and Baby Doe were adversely
affected in virtually every aspect of their lives.
29. The aforementioned cyber-bullying got to be
so bad that K.G.S. had to deactivate all of her social
media accounts, including her own Facebook page.
30. K.G.S. also began to receive, and continues to
receive, hateful messages from random individuals
and organizations inside and outside the State of Alabama via telephone, email, or regular mail.
31. At present, the hateful messages that K.G.S.
and her family have received number in the hundreds.
32. Many of K.G.S.’s business associates, friends,
and certain family members saw the articles, posts,
and videos, and now view K.G.S. in a different light
than before.

74a
33. All of these consequences have, among other
things, emotionally scarred K.G.S., cast her in a false
light, interfered with her right to parent a newly
adopted son, and invaded her and Baby Doe’s privacy.
34. Without judicial intervention, K.G.S. and
Baby Doe will continue to suffer irreparable harm.
CAUSES OF ACTION
COUNT I: NEGLIGENCE PER SE –
VIOLATION OF CONFIDENTIALITY
PROVISIONS OF ALABAMA’S ADOPTION
CODE, ALA. CODE § 26-10A-1, ET SEQ.
35. Plaintiffs adopt and re-allege all of the foregoing paragraphs of this Complaint as if fully set forth
herein.
36. The doctrine of negligence per se is based
upon the principle that, when an act is required by an
express provision of law, the legislature has adopted an
absolute standard of care that replaces the commonlaw reasonably prudent person standard. See Allen
Trucking Co., Inc. v. Blakely Peanut Co., 340 So. 2d 452,
453 (Ala. Civ. App. 1976). Accordingly, anyone who violates that law with resultant injury to an individual to
whom the law was intended to protect is liable regardless of the circumstances; proof of a violation of the law
is proof of negligence. Id. (emphasis added).
37. Several provisions within Alabama’s Adoption Code, Ala. Code § 26-10A-1, et seq., explicitly or implicitly prohibit the public disclosure of matters

75a
concerning adoptions. These provisions represent Alabama’s and most other states’ public policy of protecting parties to and subject of adoption proceedings. To
illustrate, § 26-10A-31 generally demands confidentiality for all documents and hearings related to a particular adoption. See § 26-10A-31. Notably, for purposes of
this case, § 26-10A-24(f) unequivocally provides that
any references to the names of parties to a contested
adoption proceeding “shall be by initial only.”
38. Defendants, in direct violation of the Alabama Adoption Code, disclosed and/or permitted the
disclosure of facts, names of parties, and other pieces
of information related to a private, contested adoption.
39. Plaintiffs, as parties to the private, contested
adoption, are precisely the individuals the legislature
intended to protect when it enacted the Adoption
Code’s confidentiality provisions.
40. As a direct and proximate result of Defendants’
breaches of said confidentiality provisions, Plaintiffs have
suffered, and will continue to suffer, substantial damages.
COUNT II: INVASION OF PRIVACY
– MISAPPROPRIATION
41. Plaintiffs adopt and re-allege all of the foregoing paragraphs of this Complaint as if fully set forth
herein.
42. Defendants Kim McLeod, Renee L. Gelin,
Claudia D’Arcy, and Jennifer L. Wachowski, without

76a
K.G.S.’s consent, commercially utilized K.G.S.’s name,
Baby Doe’s name, and Baby Doe’s photograph to humiliate, harass, and/or embarrass Plaintiffs.
43. Defendants Kim McLeod, Renee L. Gelin,
Claudia D’Arcy, and Jennifer L. Wachowski profited
from the unauthorized use of K.G.S.’s name, Baby
Doe’s name, and Baby Doe’s likeness.
44. As a direct and proximate result of these Defendants’ actions, Plaintiffs have suffered, and will
continue to suffer, substantial damages.
COUNT III: INVASION OF PRIVACY
– FALSE LIGHT
45. Plaintiffs adopt and re-allege all of the foregoing paragraphs of this Complaint as if fully set forth
herein.
46. Alabama has long recognized that a wrongful
intrusion into one’s private activities constitutes the
tort of invasion of privacy.
47. Defendants Kim McLeod, Renee L. Gelin,
Claudia D’Arcy, and Jennifer L. Wachowski gave publicity to a matter concerning Plaintiffs, which placed
them in a false and negative light in order to harass,
humiliate, and/or intimidate Plaintiffs.
48. Defendants Kim McLeod, Renee L. Gelin,
Claudia D’Arcy, and Jennifer L. Wachowski knew of
and/or acted with reckless disregard as to the falsity of

77a
the publicized matter and the false light in which
Plaintiffs were placed.
49. As a direct and proximate result of these Defendants’ actions, Plaintiffs have suffered, and will
continue to suffer, substantial damages.
COUNT IV: OUTRAGE AND INTENTIONAL
INFLICTION OF EMOTIONAL DISTRESS
50. Plaintiffs adopt and re-allege all of the foregoing paragraphs of this Complaint as if fully set forth
herein.
51. Defendants’ actions were so outrageous and
calculated, in that Defendants intended and plotted to
inflict emotional distress or should have known that
emotional distress was the likely result of their conduct.
52. Defendants’ conduct was so outrageous in
character and extreme in degree so as to go beyond all
possible bounds of decency and be regarded as atrocious and utterly intolerable in a civilized society.
53. As a result of Defendants’ conduct, K.G.S.
was caused to suffer and continues to suffer severe
emotional distress.
COUNT V: CIVIL CONSPIRACY
54. Plaintiffs adopt and re-allege all of the foregoing paragraphs of this Complaint as if fully set forth
herein.

78a
55. Defendants recklessly, willfully, and intentionally conspired with one another in callous disregard for Plaintiffs’ rights and interests to accomplish
the torts described herein. Furthermore, Defendants
conspired to cast K.G.S. in a false light and publicize
private confidential adoption information in order to
harass, humiliate, and/or intimidate Plaintiffs.
56. In accordance with Defendants’ scheme, and
by entering into this conspiracy, Defendants have permitted, encouraged, and induced all of the wrongful
and tortious acts discussed above.
57. Plaintiffs have suffered, and continue to suffer, severe, immediate and irreparable harm, damage,
and injury due to the wrongful acts committed in the
course of the conspiracy.
COUNT VI: NEGLIGENCE
58. Plaintiffs adopt and re-allege all of the foregoing paragraphs of this Complaint as if fully set forth
herein.
59. Defendants owed Plaintiffs a duty to apprise
themselves of the confidentiality laws related to adoptions.
60. Defendants breached their duties by failing
to adhere to confidentiality laws regarding adoption
and the disclosure thereof.

79a
61. As a result of Defendants’ breaches, Plaintiffs have suffered, and will continue to suffer, substantial damages.
COUNT VII: WANTONNESS
62. Plaintiffs adopt and re-allege all of the foregoing paragraphs of this Complaint as if fully set forth
herein.
63. Defendants had a duty to adhere to the confidentiality provisions of the Alabama’s Uniform Adoption Code.
64. Defendants breached their duty to the Plaintiffs and the general public by unlawfully mentioning
and further disseminating the full name of a party to
a private, contested adoption to the public.
65. Instead, Defendants wantonly failed to adhere to the Alabama and Uniform Adoption law of confidentiality in adoption cases.
66. As a result of the wanton actions or inactions
of Defendants, Plaintiffs have suffered, and will continue to suffer, substantial damages.
PRAYER FOR RELIEF
WHEREFORE,
PREMISES
CONSIDERED,
Plaintiffs respectfully request that this Court enter a
judgment in their favor and against Defendants as follows:

80a
A. For actual damages, consequential damages,
punitive and exemplary damages;
B.

Disgorgement of any profits received due to
Defendants’ wrongful conduct;

C.

For attorneys’ fees, court costs and expenses;
and

D. For such other and further relief sought above
or to which Plaintiffs may show themselves
justly entitled at law or in equity.
Respectfully submitted,
/s/ Andrew P. Campbell
Andrew P. Campbell
Attorneys for Plaintiffs
OF COUNSEL:
Andrew P. Campbell
Yawanna McDonald
Asher Kitchings
CAMPBELL GUIN, LLC
505 20th Street North, Suite 1600
Birmingham, AL 35203
(205) 224-0750
andy.campbell@campbellguin.com
yawanna.mcdonald@campbellguin.com
asher.kitchings@campbellguin.com
[Certificate Of Service Omitted]

